App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JOHN ROBERT REICHARD,
Debtor; ERICKA RAE
REICHARD, Debtor,
Appellants,

No. 20-15661
D.C. No.
2:19-cv-02010-DJH
MEMORANDUM*

v.
RUSSELL A. BROWN,
Chapter 13 Trustee,
Appellee.
Appeal from the United States District Court
for the District of Arizona
Diane J. Humetewa, District Judge, Presiding
Submitted November 16, 2020**
Phoenix, Arizona
Before: BYBEE, MURGUIA, and BADE, Circuit
Judges.
John Robert Reichard and Ericka Rae Reichard
(collectively, Reichards) appeal the district court’s
judgment afﬁrming the bankruptcy court’s decision to
deny conﬁrmation of their Chapter 13 plan. We have
jurisdiction pursuant to 28 U.S.C. §§ 158(d)(1) and
* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument.See Fed. R. App. P. 34(a)(2).

App. 2
1291. We review de novo the “district court’s decision
on appeal from a bankruptcy court,” In re Point Ctr.
Fin., Inc., 957 F.3d 990, 995 (9th Cir. 2020) (citation
omitted). We give no deference to the district court’s
decision and conduct our own independent review of
the bankruptcy court’s decision, Id. We afﬁrm.
1. The Reichards argue that the bankruptcy
court erred by denying conﬁrmation of their proposed
Chapter 13 plan on the ground that it did not include
a provision requiring them to provide their tax returns
to the Trustee, as District of Arizona Local Form 20844(F) requires. The Reichards argue that Local Form
2084-4(F) is inconsistent with an Act of Congress and
certain bankruptcy rules and, therefore, violates Rule
9029(a)(1) of the Federal Rules of Bankruptcy Procedure and is invalid.
Rule 9029(a)(1) prohibits local rules that are either not “consistent with,” or are “duplicative of,” Acts
of Congress or the Federal Rules of Bankruptcy Procedure. See Fed. R. Banta. P. 9029(a)(1); In re Healthcentral.com, 504 F.3d 775, 784 (9th Cir. 2007). A local rule
is not consistent with another law when it is “incompatible” with it. ABS Ent., Inc. v. CBS Corp., 908 F.3d
405, 427 (9th Cir. 2018).
The Reichards argue that Local Form 2084-4(F) is
not consistent with 11 U.S.C. § 521, which allows a
trustee to obtain a debtor’s tax returns from the court
but imposes procedures for the protection of return
information. The Reichards assert that Local Form
2084-4(F) is inconsistent with the “speciﬁc statutory

App. 3
scheme” § 521 creates “for the turnover and handling
of [a] debtor’s income tax returns.” But § 521 is not the
exclusive means by which a trustee can gain access to
a debtor’s tax returns. See, e.g., Fed. R. Bankr. P. 2004;
id. 7034. And because § 521 is not the only method for
a trustee to obtain a debtor’s tax returns, Local Form
2084-4(F) is not incompatible with § 521 simply because it provides another method for a trustee to obtain this information.1 We therefore conclude that
Local Form 2084-4(F) is not inconsistent with § 521
such that it violates Rule 9029(a)(1).
The Reichards also argue that Local Form 20844(F) is invalid because it imposes requirements that
differ from the requirements of the Bankruptcy Code
and the bankruptcy rules. But Rule 9029(a)(1) provides that a local rule must be both “consistent with,”
and “not duplicative of,” the Code and bankruptcy
rules. Fed. R. Bankr. P. 9029(a)(1); Healthcentral.com,
504 F.3d at 784. Accordingly, to be valid, a local rule—
by Rule 9029(a)(1)’s terms—must differ at least somewhat from the Code and bankruptcy rules. Consequently, the Reichards’ argument that Local Form
2084-4(F) is invalid because it is not duplicative of the
Code and bankruptcy rules fails.

1

The Reichards contend that Local Form 2084-4(F) violates
Rule 9029(a)(2) because it affects their purported substantive privacy rights under § 521. However, Local Form 2084-4(F)’s requirements are separate and apart from § 521’s provisions and
thus any privacy concerns that may be implicated by § 521 are
not applicable.

App. 4
The Reichards also assert that Local Form 2084-4
is not consistent with Rules 3015(c) and 3015.1(e) of
the Federal Rules of Bankruptcy Procedure. However,
the Reichards waived this argument by failing to raise
it in the bankruptcy court. See In re Mortg. Store, Inc.,
773 F.3d 990, 998 (9th Cir. 2014). Although it is within
our discretion to consider an argument that was not
raised before the bankruptcy court, see id., we decline
to do so here.
Accordingly, we conclude that the bankruptcy
court did not err in denying conﬁrmation based on the
Reichards’ failure to include a provision in the proposed Chapter 13 plan requiring them to provide their
post-petition tax returns to the Trustee, as Local Form
2084-4(F) requires.
2. The Reichards also contend that the bankruptcy court erred by denying conﬁrmation on the
ground that the proposed conﬁrmation order differed
from the noticed plan and thus did not comply with 11
U.S.C. § 1325(a) because of the Reichards’ failure to
provide notice of the difference. However, because we
have determined that the bankruptcy court did not err
in denying plan conﬁrmation on the ground that the
proposed plan did not comply with Local Form 20844(F), we do not need to resolve this issue. See Bazemore
v. Friday, 478 U.S. 385, 387 n.2 (1986) (per curiam);
Rodis v. City, County of San Francisco, 558 F.3d 964,
970 (9th Cir. 2009).
AFFIRMED.

App. 5
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
IN THE MATTER OF:
John Robert Reichard,

No. CV-19-02010-PHXBK NO. 2:16-BK-12633

Debtor.
Ericka Rae Reichard, et al., JUDGMENT IN
A CIVIL CASE
Appellant,
(Filed Mar. 12, 2020)

v.
Russell Brown,
Appellee.

Decision by Court. This action came for consideration before the Court. The issues have been considered and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that pursuant
to the Court’s Order ﬁled March 12, 2020, the Decision
of the Bankruptcy Court is AFFIRMED and this action
is hereby dismissed.
Debra D. Lucas
Acting District Court Executive/
Clerk of Court
March 12, 2020
By s/ W. Poth
Deputy Clerk

App. 6
NOT FOR PUBLICATION
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
John Robert Reichard, et al., No. CV-19-02010-PHXDJH
Appellants,
v.

ORDER

Russell Brown,

(Filed Mar. 12, 2020)

Appellee.
This appeal arises from the United States Bankruptcy Court for the District of Arizona’s Order denying conﬁrmation of the plan of reorganization for
Chapter 13 Debtors John Robert Reichard and Ericka1
Rae Reichard (“Debtors”). (Doc. 9-1).
I.

Background

Debtors ﬁled a voluntary petition seeking relief
under Chapter 13 of the Bankruptcy Code on November 2, 2016. Thereafter, Debtors ﬁled their proposed
Chapter 13 Plan (the “Proposed Plan”) and it was noticed to all parties who had ﬁled a proof of claim in the
bankruptcy case. Harley Davidson Credit Corporation
(“Harley”) ﬁled a proof of claim, asserting a secured
claim in the amount of $6,255.00, and an unsecured
claim in the amount of $261.11. Debtors’ Proposed
1

Ms. Reichard’s name is spelled a number of different ways
in her brieﬁng to the Court. The Court has used the spelling that
is used in the Bankruptcy Court’s case caption.

App. 7
Plan, however, proposed to pay Harley $6,500.00 on its
secured claim, which amounts to $245.00 more than
Harley is entitled on its secured claim. The parties appear to agree that the $6,500.00 ﬁgure contained in the
Proposed Plan is a scrivener’s error; nonetheless, the
Bankruptcy Court held that pursuant to the Bankruptcy Rules, Harley was entitled to notice of the
change to its secured claim amount. (Doc. 9-1). Debtors,
however, argue that the Bankruptcy Court erred in
holding that Harley was entitled to receive notice of
the change.
In addition to the notice issue with Harley’s claim,
the Chapter 13 Trustee assigned to Debtors’ case, Russell Brown (the “Trustee”), had several objections to
the Proposed Plan, namely that the Proposed Plan did
not provide for post-petition tax returns to be submitted to the Trustee. (Doc. 17). While the Debtors’ case
was pending, Federal Rule of Bankruptcy Procedure
(“FRBP”) 3015 was amended, as was the National
Chapter 13 Model Plan Form. Fed. R. Bankr. P. 3015.
The amended Rule requires bankruptcy courts to either use the National Model Plan Form or come up
with their own Local Plan Forms. Id. at 3015(c). Of
note, the National Plan Form contains a provision option that requires that “Debtor(s) will supply the trustee with a copy of each income tax return ﬁled during
the plan term within 14 days of ﬁling the return and
will turn over to the trustee all income tax refunds received during the plan term.” Ofﬁcial Form 113 (Dec.
2017).

App. 8
The District of Arizona decided to amend its Local
Bankruptcy Rules and create a new Local Plan Form,
in accordance with FRBP 3015(c). See L.R.Bankr.Pro.
2084. The new Local Rule, 2084-4, took effect on December 1, 2017 and applies to this case. General Order
No. 17-1. Local Rule 2084-4 requires Chapter 13 debtors to use Local Plan Form 2084-4 (the “Local Form”).
The provision in the Local Form states that “[w]hile
the case is pending, the Debtor shall provide to the
Trustee a copy of any post-petition tax return within
14 days after ﬁling the return with the tax agency.” Local Form 2084-4 (Dec. 2017). Debtors were required to
include this provision in their Proposed Plan pursuant
to Local Rule 2084-4(a). Debtors refused to do so, and
the Trustee objected. The parties requested that the
Bankruptcy Court decide the issue.
The Bankruptcy Court held that the use of the Local Plan Form was mandatory in this case and that
Debtors were required to include the provision regarding post-petition tax returns in their Proposed Plan.
The Court concluded that the post-petition tax provision did not violate the Bankruptcy Code or any other
law. (Doc. 9-1). Debtors appealed the decision to this
Court.
The issues on appeal are (1) whether the Bankruptcy Court erred in holding that Debtors could not
modify Harley’s secured claim without ﬁrst providing
notice to Harley; and (2) whether the provision of the
Bankruptcy Court’s Chapter 13 Local Plan Form requiring Debtors to turn over their post-petition tax

App. 9
returns to the Trustee violates any provision of the
Bankruptcy Code.
II.

Standard of Review

Pursuant to 28 U.S.C. § 158(a)(1), the District
Court has jurisdiction over appeals from “ﬁnal judgments, orders, and decrees” of bankruptcy judges. Rule
8013 of the Federal Rules of Bankruptcy Procedure
(“FRBP”) states that, “on an appeal the district court
. . . may afﬁrm, modify, or reverse a bankruptcy judge’s
judgment, order, or decree or remand with instructions
for further proceedings. Findings of fact, whether
based on oral or documentary evidence, shall not be set
aside unless clearly erroneous, and due regard shall be
given to the opportunity of the bankruptcy court to
judge the credibility of the witnesses.” Fed. R. Bankr.
Pro. 8013.
This Court reviews a bankruptcy court’s decision
related to the conﬁrmation of a plan for an abuse of
discretion. In re Marshall, 721 F.3d 1032, 1045 (9th Cir.
2013). “A bankruptcy court abuses its discretion if it
applies an incorrect legal standard or misapplies the
correct legal standard . . . ”. TrafﬁcSchool.cont Inc. v,
Edriver Inc., 653 F.3d 820, 832 (9th Cir. 2011). Findings
of fact are reviewed for clear error. In re Bea, 533 B.R.
283, 285 (9th Cir. B.A.P. 2015). This Court “must afﬁrm
the bankruptcy court’s fact ﬁndings unless [it] determine[s] that those ﬁndings are ‘(1) illogical,’ (2) ‘implausible,’ or (3) without ‘support in inferences that
may be drawn from the facts in the record.’ ” United

App. 10
States v. Hinkson, 585 F.3d 1247, 1262 (9th Cir. 2009)
(en banc). In other words, the Court must accept the
bankruptcy court’s ﬁndings of fact unless the Court “is
left with the deﬁnite and ﬁrm conviction that a mistake has been committed[.]” In re Greene, 583 F.3d 614,
618 (9th Cir. 2009). This Court “may afﬁrm the decision
of the bankruptcy court on any basis supported by the
record.” ASARCO v. Union Pac. Co., 765 F.3d 999, 1004
(9th Cir. 2014). The standard of adequacy of factual
ﬁndings is “whether they are explicit enough on the ultimate issues to give the appellate court a clear understanding of the basis of the decision and to enable it
to determine the grounds on which the trial court
reached its decision.” Louie v. U.S., 776 F.2d 819, 82223 (9th Cir. 1985) (quoting Nicholson v. Bd. of Education Torrance Unified School District, 682 F.2d 858,
866 (9th Cir. 1982)). The Court reviews “chapter 13
plan confirmation issues requiring statutory interpretation de novo.” In re Giesbrecht, 429 B.R. 682, 687
(B.A.P. 9th Cir. 2010).
III. Analysis
The Court will ﬁrst address the proposed amendment of Harley’s secured claim. The Court reviews the
Bankruptcy Court’s legal conclusions de novo.
A. Amendment to Harley’s Secured Claim
In the bankruptcy proceeding, Debtors sought
to modify Harley’s secured claim from the amount initially proposed due to an apparent scrivener’s error.

App. 11
Debtors argue that they should be able to modify the
Plan’s treatment of the secured claim without giving
Harley notice of the amendment and an oppourtunity
to respond. (Doc. 5 at 9). Debtors argue that even with
the amendment, Harley will be paid its full secured
claim amount. While the difference in the amount initially listed and the proposed modiﬁed amount is fairly
small, the Bankruptcy Court held that regardless of
the amount, the Bankruptcy Code requires an amended
Plan to be ﬁled in order to put the creditor on notice of
any changes in treatment to their secured claims. (Doc.
9-1 at 6). This Court agrees.
The Bankruptcy Code contemplates that a debtor
may modify or amend the plan before conﬁrmation.
Section 1323(a) states that “[t]he debtor may modify
the plan at any time before confirmation.” This modification becomes part of the new plan. 11 U.S.C.
§ 1323(b). However, the FRBP requires that notice
be given to affected creditors. Fed. R. Bankr. Pro.
2002(a)(5). The affected creditor has 21 days to accept
or object to a proposed modiﬁcation of a debtor’s plan
after receiving notice. (Id.)
The Proposed Plan, as initially noticed, projected
to pay Harley $6,500 on its secured claim. Debtors seek
to reduce the secured claim amount to $6,255, which is
the amount that Harley submitted on its Notice of
Claim, a difference of $245. While the Bankruptcy
Court noted that it appeared that the proposed
amendment was only to fix a prior mistake, it held
that Harley is entitled to receive notice and have an

App. 12
oppourtunity to object to the amendment.2 The plain
language of the FRBP require such notice be given, regardless of the amount of the change in the claim or
the reason for the amendment. Fed. R. Bankr. P.
2002(a)(5). The Court ﬁnds that the Bankruptcy Court
did not abuse its discretion in ﬁnding that Debtors had
to re-notice their Proposed Plan. After reviewing the
legal conclusions de novo, the Court ﬁnds that Debtors
are entitled to modify their Chapter 13 Plan, but that
the Bankruptcy Code requires Harley receive notice
and an oppourtunity to object to that amendment.
B. Post-Petition Tax Return Requirement
Debtors next argue that the Local Plan Form that
requires debtors to provide post-petition tax returns
to the Trustee is unlawful. (Doc. 5 at 5). Debtors
acknowledge that there are mechanisms in the Code
for the Trustee to obtain tax returns from Chapter 13
Debtors post-petition, namely 11 U.S.C. § 521(f ). However, they essentially argue that Section 521(f ) is the
only mechanism by which a debtor can be compelled to
provide post-petition tax returns to the Trustee. (Id. at
10-11). The Trustee argues that the Bankruptcy Court
permissibly enacted the new Local Plan Form, which
requires Chapter 13 debtors to transfer their postpetition tax returns directly to the Trustee during the
pendency of their Plan, and further argues that 11
2

Alternatively, the Bankruptcy Court held that Debtors
could seek a stipulation from Harley that it consented to the treatment of its secured claim. (Doc. 9-1 at 10). It does not appear that
Debtors sought a stipulation.

App. 13
U.S.C. § 521(f ) is not the exclusive means for obtaining
post-petition returns. (Doc. 17). The Bankruptcy Court
agreed with the Trustee and rejected Debtors’ objections. (Doc. 9-1).
1. Duties of the Trustee
Chapter 13 bankruptcy protection “affords individuals receiving regular income an opportunity to obtain some relief from their debts while retaining their
property.” Bullard v. Blue Hills Bank, 575 U.S. 496
(2015). However, in order to receive this protection, a
debtor must propose and obtain Court approval of a
“plan under which [the debtor] pay[s] creditors out of
. . . future income . . . ” and agrees to be overseen by a
Chapter 13 trustee. Hamilton v. Lanning, 560 U.S. 505,
508 (2010).
Both the Bankruptcy Code and the Federal Rules
of Bankruptcy Procedure broadly empower Chapter 13
trustees to gather information in Chapter 13 cases. A
primary duty of the trustee is to “investigate the financial affairs of the debtor.” 11 U.S.C. §§ 704(a)(4).
Chapter 13 trustees also have the duty to request modiﬁcation of conﬁrmed plans to “increase or reduce the
amount of payments” based on a debtor’s post-petition
income. 11 U.S.C. § 1329(a)(1). The Trustee is further
authorized to examine “the ﬁnancial condition of the
debtor, or to any matter which may affect the administration of the debtor’s estate, or the debtor’s right to
a discharge” in addition to “the source of any money or
property acquired or to be acquired by the debtor for

App. 14
the purposes of consummating a plan and the consideration given or offered therefor, and any other matter
relevant to the case or to the formulation of a plan.”
Fed. R. Bankr. P. 2004(b). Debtors are required to “cooperate with the trustee as necessary to enable the
trustee to perform the trustee’s duties.” 11 U.S.C.
§ 521(a)(3).
Tax returns are a primary way in which trustees
verify a debtor’s income. One way that a trustee can
obtain a debtor’s post-petition tax returns is outlined
in Section 521(0. That provision states:
At the request of the court, the United States
trustee, or any party in interest in a case under chapter 7, 11, or 13, a debtor who is an individual shall ﬁle with the court- at the same
time ﬁled with the taxing authority, a copy of
each Federal income tax return required under applicable law (or at the election of the
debtor, a transcript of such tax return) with
respect to each tax year of the debtor ending
while the case is pending under such chapter.
The purpose of allowing the Trustee to access a
debtor’s post-petition tax returns “appears to be to allow interested parties like [the] Trustee to monitor a
debtor’s ﬁnancial condition during the pendency of the
chapter 13 case and to seek plan modiﬁcation under
§ 1329 if there are material increases in net income
that can be captured for contribution,” In re Romeo,
2018 WL 1463850, at *4 (B.A.P. 9th Cir, Mar. 23, 2018).
Such use of post-petition tax returns is consistent with
the Bankruptcy Code. See Fridley v. Forsythe (In re

App. 15
Fridley), 380 B.R. 538, 544 (B.A.P. 9th Cir. 2007) (discussing the necessity of tax returns in providing “information needed by a trustee . . . to decide whether to
propose hostile § 1329 plan modiﬁcations”); Danielson
v. Flores (In re Flores), 735 F.3d 855, 860 (9th Cir. 2013)
(discussing permissibility of “modiﬁcation of the plan
to increase the debtor’s payments if the debtor acquires disposable income during the pendency” of the
Plan term).
2. History of Arizona’s Local Plan Form
Bankruptcy courts have long been delegated authority from the district courts to adopt local rules
prescribing the conduct of business and to improve judicial economy. Fed. R. Bankr. P. 9029, “Federal Rule of
Bankruptcy Procedure 9029 governs the making and
amending of rules, and permits the district court to authorize the bankruptcy judges of the district to make
and amend rules of practice and procedure which are
consistent with . . . Acts of Congress and these rules
and which do not prohibit or limit the use of the Ofﬁcial Forms.” In re Reyes, 482 B,R. 603, 607 (D. Ariz.
2012). FRBP 9029 allows for the making of local bankruptcy rules so long as they are not inconsistent with
the more general Bankruptcy Rules. Bersher Invs. v.
Imperial Say. Ass’n. (In re Bersher Invs.), 95 B.R. 126,
129 (9th Cir. BAP 1988). Rule 83 of the Federal Rules
of Civil Procedure imposes the additional requirement
that local rules may only be enacted or amended
“[a]fter giving public notice and an opportunity for
comment.” Fed. R. Civ. P. 83.

App. 16
FRBP 3015, as amended in December 2017, requires that the National Plan Form be used in all
Chapter 13 cases, unless a Local Plan Form that complies with FRBP 3015 has been implemented at the
district level. Fed. R. Bankr. P. 3015. The District of
Arizona Bankruptcy Court decided to adopt a Local
Plan Form, rather than use the National Plan Form.
Following notice by publication and a period for public
comment, the bankruptcy judges approved the Local
Plan Form for use in the District of Arizona. Pursuant
to Local Rule 2084-4 and General Order No. 17-1, the
Local Plan Form “must be used for all original,
amended, or modiﬁed plans” in all Chapter 13 cases.
At issue here is the Local Plan Form which requires Chapter 13 debtors to submit post-petition tax
returns directly to the trustee each year. The Local
Plan Form obviates the need for a trustee to request
those returns from the Bankruptcy Court every year
in every Chapter 13 case. As the trustee and the bankruptcy court identiﬁed, this provision is by no means
unique to the District of Arizona. In fact, 12 of the 15
Districts within the Ninth Circuit have a post-petition
tax return requirement, in addition to the requirements of Section 521(f).3 Moreover, the provision
3

This includes Local Plan Forms (“LPF”) in Bankruptcy
Courts in the following Districts in the Ninth Circuit: Arizona
(LPF 2084-4); Central California (LPF 3015-1); Eastern California (EDC 3-080); Northern California (General Order 34); Southern California (CSD 1300); Guam (GUB 113); Hawaii (H113);
Idaho (LRBankr. 1007.3); Montana (Mont. LRBankr. 9009-1); Nevada (NVB 113); Northern Mariana Islands (National Ofﬁcial
Form 113); and Oregon (LPF 1300.17). Debtors argue that this

App. 17
substantially mirrors the tax return provision in the
National Plan Form, which is used by all jurisdictions
in the United States unless they have implemented a
local plan form. (Ofﬁcial Form 113).
3. Application of the Local Plan Form
Debtors argue that Section 521(f ) is the only
means by which they can be forced to turn over their
tax returns, and thus, that the Local Plan Form violates the Bankruptcy Code. Debtors’ arguments lack
merit for a number of reasons. Nothing in Section
521(f ) indicates it is the only mechanism by which a
trustee can obtain a debtor’s tax returns. A plain reading of the statute indicates as much. Indeed, numerous
courts have identiﬁed many provisions of the Code,
other than Section 521(f ), that allow a trustee to obtain post-petition returns from post-petition debtors.
For instance, the Ninth Circuit Bankruptcy Appellate
Panel (“B.A.P.”) held that a trustee need not rely on
Section 521(1) to obtain debtor’s tax returns during a
Rule 2004 examination, recognizing that Section 521(f )
was not the exclusive means to obtain post-petition
tax returns. In re Romeo, 2018 WL 1463850, at *6
(B.A.P. 9th Cir. Mar. 23, 2018); see also In re Parker, 488
B.R. 794, 798-99 (Bankr. N.D. Ga. 2013) (recognizing
information should not be considered by the Court as it was not
raised with the lower court. However, this information is publicly
accessible information from other federal courts in this Circuit of
which this Court may take notice. Lee v. City of Los Angeles, 250
F.3d 668, 689 (9th Cir. 2001) (“A court may take judicial notice of
“matters of public record.”)

App. 18
that courts have “consistently ruled” that tax returns
are discoverable documents pursuant to FRBP 7034
for use in an adversary proceeding).
Debtors’ arguments are not novel. In fact, Debtors’
counsel has made similar arguments that have been
rejected by appellate courts with regard to turning
over ﬁnancial information to a trustee. One such case
was published just last month. See In re: David Andrew
Crow & Renee Toinette Crow, 2020 WL 710351, at *5-6
(B.A.P. 9th Cir. Feb. 10, 2020). In Crow, debtors argued
that they had no obligation to provide tax returns to
the chapter 13 trustee during the pendency of their
conﬁrmed plan. Id. The Court held that debtors’ arguments “lacked merit,” noting the cases cited by debtors
“did not absolve chapter 13 debtors from providing additional ﬁnancial information to trustees during their
plan terms.” Id. Therein, the Court noted the role of the
trustee as central to the Chapter 13 process, and stated
that “[t]his power of the trustee . . . [is] designed to facilitate a chapter 13 trustee’s ability to monitor a
debtor’s postconﬁrmation ﬁnancial condition . . . in order to capture material increases in net income that
occur during the life of the plan [which] is an important feature of chapter 13.” Id. Debtors’ similar arguments in this case are equally unpersuasive.
Moreover, the rule amendment was proposed to
promote judicial efﬁciency and to lower costs of the
Chapter 13 process, and was enacted pursuant to the
direction of FRBP 3015. The Bankruptcy Court found
that the Local Plan Form keeps down the costs of the
process while promoting efficient administration of

App. 19
justice. (Doc. 9-1 at 9). Courts have an interest in managing their dockets to ensure that justice is expended
in an efficient and fair manner to all litigants.
CMAX, Inc. v. Hall, 300 F.2d 265 (9th Cir. 1962). Over
3,000 Chapter 13 cases were ﬁled in the District of Arizona in 2019. See United States Bankruptcy Court
for the District of Arizona, 2019 Filing Statistics,
http://www.azb.uscourts.gov/filing-statistics. Moreover,
the Chapter 13 Plan term is generally between three
to ﬁve years. 11 U.S.C. § 1322(d). If the trustee assigned to each of these cases had to ﬁle motions every
year in every case in order to obtain post-petition tax
returns that they are statutorily obligated to monitor,
this would cause a massive inﬂux of potentially thousands of additional motions ﬁled on the court’s docket
per year.4 This would put a strain on an already busy
bankruptcy court system, which would, in turn, delay
the administration of justice to all litigants. Moreover,
the Trustee argues that such a scheme would signiﬁcantly increase the cost of case administration, which
would lead to an increase in attorneys’ fees and trustee’s costs, which is ultimately passed on to the debtors. 11 U.S.C. § 326(b).
The Bankruptcy Court’s decision—after committee approval, a public comment period, and approval
by the bankruptcy judges of this District—to use the
Plan Form is wholly consistent with FRBP 3015 and
9029(b). Fed. R. Bankr. P. 9029(b) (“[a] judge may
4

At the oral argument in the bankruptcy court, the Trustee
stated for reference that he alone had “2,400 active cases perhaps
1,500 of those with a conﬁrmed plan.” (Doc. 13-2 at 5).

App. 20
regulate practice in any manner consistent with federal law, these rules, Ofﬁcial Forms, and local rules of
the district.”). Moreover, as the other courts who have
examined the issue have concluded, Section 521(f ) is
but one way for a trustee to obtain a debtor’s postpetition tax information. See Romeo, 2018 WL
1463850, at *6. The use of the similar tax return provision in the National Model Plan Form supports this
conclusion. The Court ﬁnds no defects in the process in
which the Bankruptcy Court for the District of Arizona
implemented the Local Plan Form. Debtors cite no law
to the contrary and their arguments are unpersuasive.5

5

The Bankruptcy Court’s Order noted that “it appears the
Debtors intent in objecting to this local plan provision is to purposefully increase the cost to the Trustee of obtaining an important source of ﬁnancial information, the tax returns, and to
avoid the disclosure of any changes in their projected disposable
income, in order to prevent the Trustee from seeking modiﬁcation
pursuant to Code § 1329. Under the circumstances, any encroachment on the Debtors’ rights is outweighed by the Trustee’s competing duty to investigate and analyze the ﬁnancial affairs of the
Debtors and to seek to modify their plan, if appropriate.” (Doc. 91 at 10). Indeed, the Court notes that Debtors’ Opening Brief
frames this case as the Trustee “demanding that copies of all postpetition Federal and state income tax returns be delivered to his
ofﬁce on an annual basis.” (Doc. 5 at 8). Debtors also argue that if
this Court afﬁrms the lower court, the Trustee “will be able to sit
in an ofﬁce tower in Central Phoenix, have debtors send him copies of their state and Federal income tax returns . . . Then the
[Trustee] will use the conﬁrmation order he prepared, and forces
debtors to sign, that he can search for changes in their annual
disposable income as binding on debtors . . . This is his end game.”
(Doc. 5 at 15). While personal arguments such as these are not
helpful to the Court in deciding the legal issues, the Court notes

App. 21
In a ﬁnal attempt to persuade this Court that the
Model Plan Form is unlawful, Debtors argue that the
District of Arizona is an outlier, and that there is “no
other system that requires what the District of Arizona” does. (Doc. 5 at 13). That is simply not the case.
As discussed above, an overwhelming majority of the
bankruptcy courts in this Circuit have developed similar mechanisms for Chapter 13 trustees to obtain
post-petition tax returns, in addition to substantially
similar language being included in the National Model
Plan Form. While that fact itself does not make the
Model Plan Form legal, that the majority of bankruptcy courts in this Circuit have adopted similar provisions in accordance with FRBP 3015 is instructive.
The Bankruptcy Court correctly held that the Local
Plan Form permissibly requires debtors to submit
their post-petition tax returns to the Chapter 13 trustee.
4. Newly Raised Issue
In their Conclusion, Debtors argue that “this
Panel”6 should reverse the lower court and rule that
again that it is the statutory duty of a Chapter 13 trustee to examine the ﬁnancial situations of debtors and make a motion with
the bankruptcy court to modify a debtor’s plan based on a change
in annual disposable income. 11 U.S.C. §§ 704(a)(4) (listing as the
trustee’s duty to “investigate the ﬁnancial affairs of the debtor”).
Debtors’ inﬂammatory arguments are unavailing. Without access
to the Debtors’ post-petition tax returns, the Trustee is unable to
perform his statutory duties.
6
Debtors previously appealed a portion of this case to the
Ninth Circuit Bankruptcy Appellate Panel. That case was

App. 22
the Director of the Administrative Ofﬁce’s guidance on
the safe handling of tax returns “are applicable to
Chapter 13 case trustees and local court’s Model Chapter 13 Plan forms for the state of Arizona.” (Doc. 5 at
19). To the extent that Debtors are arguing about the
safety of their tax returns, the Trustee states that all
tax returns are ﬁled through a “secure document portal,” preventing unauthorized access to the returns.
(Doc. 17 at 9-10). Nevertheless, the Bankruptcy Court’s
Order does not contain any legal discussion as to this
argument and the Court will not consider an issue
raised for the ﬁrst time on appeal.
IV. Conclusion
After a de novo review of the Bankruptcy Court’s
legal conclusions, the Court ﬁnds that the Bankruptcy
Court correctly held that FRBP 2002 requires Debtors
to provide notice to Harley of any amended claim in the
Proposed Plan. Additionally, the Local Plan Form permissibly creates a reasonable and efﬁcient way for the
Trustee to receive Debtors’ post-petition tax returns
and does so in a way that complies with FRBP 3015
and other applicable law. The Bankruptcy Court did
not err in so holding. Therefore, the Court afﬁrms the
decision of the Bankruptcy Court.

dismissed as interlocutory. (Doc. 5 at 7). The Court assumes that
the reference to “the Panel” is a mistaken reference to that judicial body.

App. 23
Accordingly
IT IS HEREBY ORDERED that the Order of the
Bankruptcy Court is afﬁrmed.
IT IS FURTHER ORDERED that the Clerk of
Court shall enter judgment accordingly and dismiss
this action.
Dated this 12th day of March, 2020.
/s/ Diane J. Humetewa
Honorable Diane J. Humetewa
United States District Judge

App. 24
UNITED STATES BANKRUPTCY COURT
DISTRICT OF ARIZONA
In re:

Chapter 13

JOHN ROBERT REICHARD Case No.
and ERICKA RAE REICHARD, 2:16-bk-12633-BMW
Debtors.

RULING AND ORDER REGARDING
DEBTORS’ PLAN
(Filed Jul. 5, 2018)

This matter came before the Court pursuant to
the Motion to Set Conﬁrmation Hearing (the “Motion”)
ﬁled by John and Ericka Reichard (the “Debtors”) (Dkt.
37); the Response to Debtor’s Motion to Set Conﬁrmation Hearing (the “Response”) ﬁled by Russell Brown,
the Chapter 13 Trustee (the “Trustee”) (Dkt. 39); the
Debtors’ Reply in Support of Motion to Set Conﬁrmation Hearing (the “Reply”) (Dkt. 40); the Trustee’s
Supplemental Response to Debtor’s Motion to Set
Conﬁrmation Hearing (the “Supplemental Response”)
(Dkt. 44); and the Debtors’ Final Memorandum Regarding Conﬁrmation Hearing (the “Final Memorandum”) (Dkt. 45).
The Motion requested a conﬁrmation hearing on
the Debtors’ proposed Chapter 13 Plan in order to resolve objections to the proposed conﬁrmation order
raised by the Trustee. The issues were briefed, as set
forth above, and the Court held oral arguments on
March 13, 2018, at the conclusion of which the Court

App. 25
took the matter under advisement. Upon consideration
of the entire record, the Court now issues its ruling.
I.

Jurisdiction

The Court has subject matter jurisdiction over
this proceeding pursuant to 28 U.S.C. §§ 157(a) and
1334(b), and it is a core proceeding under 28 U.S.C.
§ 157(b).
II.

Factual and Procedural Background

The Debtors ﬁled a voluntary petition seeking relief under Chapter 13 of the Bankruptcy Code on November 2, 2016. The Debtors ﬁled their Chapter 13
plan (the “Plan”) shortly thereafter, and the Plan was
noticed to parties in interest. (Dkts. 12, 14 & 15).
On November 29, 2016, Harley Davidson Credit
Corporation (“Harley Davidson”) ﬁled a proof of claim,
in which it asserted a secured claim in the amount of
$6,255.00 and an unsecured claim in the amount of
$261.11. (Proof of Claim 2-1). The Debtors’ Plan lists
the debt amount owed to Harley Davidson as being
$6,364.26, but the Plan proposes to pay Harley Davidson $6,500 on its secured claim. (Dkt. 12 at 3).
The Plan, which was the form plan in use in the
District of Arizona at the time it was ﬁled, provides
in Section (H) that “[w]hile the case is pending, the
Debtor shall provide to the trustee a copy of any postpetition tax return within thirty days after ﬁling the
return with the tax agency.” The Debtors listed this as

App. 26
a varying provision and referred to Section (J), which
provides that the Debtors would not provide the Trustee with a copy of any post-petition tax returns, but
would instead ﬁle their post-petition federal income
tax returns with the Court pursuant to 11 U.S.C.
§ 521(f ).1 (Dkt. 12 at 5).
On January 26, 2017, the Trustee ﬁled a plan recommendation, in which he set forth issues with the
Plan, the resolution of which he deemed prerequisites
to consensual conﬁrmation. (Dkt. 18). Debtors’ counsel
ﬁled three motions to extend his deadline to respond to
the Trustee’s plan recommendation, and on August 18,
2017, the Debtors submitted a proposed stipulated
order of conﬁrmation to the Trustee (the “Proposed
SOC”). (See Dkts. 21, 24, 26, 32).
The Proposed SOC provides in relevant part:
(A) INCOME SUBMITTED TO THE PLAN.
....
....
(1)

Future Earnings or Income. . . . .

The Debtors shall ﬁle copies of their federal
income tax returns for post-petition years
2017 – 2020 within 30 days of ﬁling them with
the Court pursuant to 11 U.S.C. § 521(f ). The
purpose is to assist the Trustee in determining any change in Debtors’ annual disposable
income. Postpetition state income tax returns
1

11 U.S.C. §§ 101 et seq. will hereinafter be referred to as
the “Bankruptcy Code” or “Code.”

App. 27
will be handled pursuant to the ﬁnal appellate
decision rendered in case number 2-14-bk7968-BKM.
(C) CLASSIFICATION AND TREATMENT
OF CLAIMS.
....
....
(3)

Claims Secured by Personal Property:

....
(c) Harley-Davidson Credit Corp.,
secured by a lien in a 2008 HarleyDavidson FXDC Dyna Super Glide,
shall be paid a secured claim of
$6,255.00 with 7% interest. The balance of the debt shall be classiﬁed as
unsecured.
(Dkt. 39 at Ex. A).
The Trustee rejected the Proposed SOC on several
grounds, including that the tax return paragraph did
not provide for returns to be provided to the Trustee
and that the amount to be paid to Harley Davidson differed from the treatment set forth in the Plan. Debtors’
counsel then ﬁled the Motion requesting this Court to
determine the issues relating to the tax returns and
the treatment of Harley Davidson.
After Debtors’ counsel ﬁled the Motion, the District of Arizona adopted new local rules relating to
Chapter 13 cases, which became effective December 1,
2017 (“Revised Local Chapter 13 Rules”). See Local

App. 28
Rules of Bankruptcy Procedure for the District of Arizona – 2084 Series. Such rules apply to all cases ﬁled
after November 30, 2017, and all pending cases, unless
the Court ﬁnds such application is not just and practicable. General Order No. 17-1. Rule 2084-4 of the Revised Chapter 13 Local Rules mandates the use of
Local Form 2084-4 (the “Local Plan Form”), which includes the following provision related to post-petition
tax returns:
While the case is pending, the Debtor shall
provide to the Trustee a copy of any post-petition tax return within 14 days after ﬁling the
return with the tax agency.
At the hearing on March 13, 2018, the parties also
raised an issue relating to the secured claim of Lakeview Loan Servicing and its objection to the Plan.
Given that this issue was not set for hearing, and that
the parties indicated that the issue was likely to be resolved, the matter is not before the Court at this time,
but would need to be resolved prior to conﬁrmation of
a plan. At the hearing the Debtor and the Trustee also
resolved issues pertaining to the language in paragraph D of the Proposed SOC; therefore, this issue is
not before the Court, but the agreed upon language
would need to be included in a ﬁnal order conﬁrming a
plan.
III. Issues
1. Whether the order of conﬁrmation may propose treatment consistent with Harley Davidson’s ﬁled

App. 29
proof of claim, but different than the treatment set
forth in the Debtors’ Plan.
2. Whether the Local Rules and Local Plan Form
may require the Debtors to provide copies of their postpetition tax returns directly to the Trustee.
IV. Legal Analysis and Conclusions of Law
1. The Harley Davidson Claim
The Debtors argue that they are entitled to pay
Harley Davidson’s secured claim in the amount asserted by Harley Davidson in its proof of claim. The
Trustee contends that the Debtors must provide Harley Davidson with notice if they wish to modify the
amount to be paid to Harley Davidson through their
Plan.
Code § 1323(a) allows Chapter 13 debtors to modify their plans at any time before conﬁrmation. The
plan as amended then becomes the plan. 11 U.S.C.
§ 1323(b). Federal Rule of Bankruptcy Procedure
2002(a)(5)2 requires that all creditors be given at least
21 days’ notice of the deadline to accept or reject a proposed modiﬁcation.3 See also In re Franklin, 459 B.R.
463, 465 (Bankr. D. Nev. 2011) (“The authorities are in
general agreement that any modiﬁcation resets the

2

The Federal Rules of Bankruptcy Procedure will hereinafter be referred to as “FRBP” or “Federal Rules.”
3
The Federal Rules of Bankruptcy Procedure will hereinafter be referred to as “FRBP” or “Federal Rules.”

App. 30
time for objection, and thus the modiﬁed plan must be
renoticed.”).
The Debtors’ Plan, as noticed out, and not objected
to by Harley Davidson, proposed to pay Harley Davidson $6,500 on account of its secured claim. The proposed conﬁrmation order reduces the amount that
Harley Davidson would receive on its secured claim to
$6,255. Harley Davidson has not been given notice of
this modiﬁcation. Though this modiﬁcation appears to
be a correction given that Harley Davidson ﬁled a secured proof of claim in the amount of $6,255, Harley
Davidson is nonetheless entitled to notice of the
amendment and an opportunity to object, as the proposed alteration will affect Harley Davidson’s rights.
Based on the foregoing, it is this Court’s determination that an amended plan is required which gives
notice and opportunity to object, or alternatively, Harley Davidson may consent by stipulation to a conﬁrmation order.
2. The Local Plan Form’s Requirement that
Debtors Submit Post-Petition Tax Returns
to the Trustee
The Debtors argue that the Local Plan Form violates the Bankruptcy Code and the Federal Rules on
the basis that the Trustee is required to follow Code
§§ 521(f ) and (g) in order to obtain access to post-petition tax returns. The Trustee argues that the Local
Rules and Local Plan Form permissibly require the

App. 31
Debtors to provide copies of their post-petition tax returns directly to him.
Federal Rule 9029 empowers bankruptcy courts to
make and amend local rules. Rule 9029 provides, in
part, as follows:
(a)

Local bankruptcy rules
(1) . . . .
A district court may authorize the bankruptcy judges of the district, subject to
any limitation or condition it may prescribe and the requirements of 83
F.R.Civ.P., to make and amend rules of
practice and procedure which are consistent with – but not duplicative of –
Acts of Congress and these rules and
which do not prohibit or limit the use of
the Ofﬁcial Forms. Local rules shall conform to any uniform numbering system
prescribed by the Judicial Conference of
the United States.

(2) A local rule imposing a requirement of form
shall not be enforced in a manner that causes
a party to lose rights because of a nonwillful
failure to comply with the requirement.
FRBP 9029.
The language in Federal Rule of Civil Procedure 83 is
similar to the language in FRBP 9029, but imposes the
additional requirement that local rules may only be
made or amended “[a]fter giving public notice and an
opportunity for comment.”

App. 32
In December 2017, the U.S. Supreme Court, in accordance with 28 U.S.C. § 2075, amended FRBP 3015.
Pursuant to FRBP 3015, as amended, Ofﬁcial Form
113 (the “National Plan Form”) must be used in all
Chapter 13 cases, except to the extent a Local Form
that complies with FRBP 3015.1 has been implemented at the district level.
The District of Arizona chose to adopt the Local
Plan Form, which is compliant with FRBP 3015.1. Pursuant to Local Rule 2084-4 and General Order No. 171, the Local Plan Form “must be used for all original,
amended, or modiﬁed plans” in all pending Chapter 13
cases, unless the Court ﬁnds that such application is
not just and practicable. “Varying provisions must be
speciﬁc and not inconsistent with the Code, FRBP or
Local Rules.” LR 2084-4(a). The Local Plan Form requires Chapter 13 debtors to submit post-petition tax
returns directly to the trustee.4 The Revised Local
Chapter 13 Rules were published with notice and an
opportunity for public comment before adoption.
In order to be valid, a local bankruptcy rule must:
(1) be consistent with Acts of Congress and the Federal
Rules; (2) be more than merely duplicative of Acts of
Congress and the Federal Rules; and (3) not prohibit
or limit the use of Ofﬁcial Bankruptcy Forms. In re
Healthcentral.com, 504 F.3d 775, 784 (9th Cir. 2007)
(adopting the test articulated in In re Steinarcher, 283
4

It should be noted that the National Plan Form in section
2.3 provides in part, as an option, that “Debtor(s) will supply the
trustee with a copy of each income tax return ﬁled during the plan
term within 14 days of ﬁling the return. . . .” Ofﬁcial Form 113.

App. 33
B.R. 768 (B.A.P. 9th Cir. 2002)). The Revised Local
Chapter 13 Rules meet these requirements.
The provision in the Local Plan Form that requires
Chapter 13 debtors to submit post-petition tax returns
directly to the trustee is consistent with the Code and
Federal Rules, as well as the National Plan Form. Code
§ 1302(b)(1), which incorporates § 704(a)(4) of the
Code, requires trustees to “investigate the ﬁnancial affairs of the debtor[.]” The Code also imposes a number
of duties on debtors, including the duty to “cooperate
with the trustee as necessary to enable the trustee to
perform [his] duties. . . .” 11 U.S.C. § 521. Neither the
Code nor Federal Rules address accessibility to or disclosure of debtors’ post-petition state tax returns, but
the Code imposes a duty on debtors to supply their
post-petition federal tax returns under certain circumstances. See 11 U.S.C. § 521(0(1).
Code § 521(f )(1) provides:
At the request of the court, the United States
trustee, or any party in interest in a case under chapter 7, 11, or 13, a debtor who is an individual shall ﬁle with the court – at the same
time ﬁled with the taxing authority, a copy of
each Federal income tax return required under applicable law (or at the election of the
debtor, a transcript of such tax return) with
respect to each tax year of the debtor ending
while the case is pending under such chapter[.]
“[T]he purpose of [Code] § 521(0 . . . appears to be to
allow interested parties like [the] Trustee to monitor a

App. 34
debtor’s ﬁnancial condition during the pendency of the
chapter 13 case and to seek plan modiﬁcation under
[Code] § 1329 if there are material increases in net
income that can be captured for contribution.” In re
Romeo, No. BAP AZ-17-1215-BLKU, 2018 WL 1463850,
at *4 (B.A.P. 9th Cir. Mar. 23, 2018). A trustee’s use of
debtors’ tax return information for purposes of evaluating whether a plan modiﬁcation is warranted is consistent with the Code. Id. (citing Fridley v. Forsythe (In
re Fridley), 380 B.R. 538, 544 (B.A.P. 9th Cir. 2007);
Danielson v. Flores (In re Flores), 735 F.3d 855, 860 n.7
(9th Cir. 2013); In re Escarsega, 573 B.R. 219, 224
(B.A.P. 9th Cir. 2017); In re King, 2010 WL 4363173, at
*3 (Bankr. D. Colo. Oct. 27, 2010); In re Self, 2009 WL
2969489, at *5 (Bankr. D. Kan. Sept. 11, 2009); In re
Slusher, 359 B.R. 290, 304 (Banks. D. Nev. 2007)).
Although Code § 521(f ) addresses a means by
which a trustee can gain access to post-petition federal
tax returns, Code § 521(f ) does not provide the exclusive mechanism by which a trustee may obtain access
to such tax returns. A trustee may, for example, apply
for a Rule 2004 examination, ﬁle a motion under
§ 521(a)(3), or seek to obtain post-petition tax returns
pursuant to Rule 7034 in the context of an adversary.
Cf. In re Parker, 488 B.R. 794, 798-99 (Bankr. N.D. Ga.
2013) (recognizing that tax returns can be discoverable
documents for purposes of FRBP 7034); In re Collins,
393 B.R. 835, 837 (Bankr. E.D. Wis. 2008) (recognizing
a creditor’s ability to use FRBP 2004 to require a
debtor to produce tax returns). Further, although the
Ninth Circuit B.A.P. in the Romeo case found that Code

App. 35
§ 521(g) was not a basis for turnover of post-petition
state tax returns, it clearly recognized that the trustee
might obtain such returns by other means. In re Romeo, 2018 WL 1463850, at *6.
Chapter 13 was intended to provide individual
debtors with a streamlined process for reorganizing
their debts. In re Vega-Lara, No. 17-52553-CAG, 2018
WL 2422427, at *5 (Bankr. W.D. Tex. May 4, 2018)
(quoting In re Solitro, 382 B.R. 150, 152 (Bankr, D.
Mass. 2008)). Uniform plans, like the Local Plan Form,
allow Chapter 13 trustees, creditors’ attorneys, and
debtors’ attorneys to more quickly, efﬁciently, and inexpensively review and prepare plans. See id. (quoting
In re Solitro, 382 B.R. 150, 152 (Banks. D. Mass. 2008)).
The Trustee has a statutory duty to investigate
the ﬁnancial affairs of the Debtors. In order to fulﬁll
this duty, he needs to have the ability to readily access
debtors’ post-petition tax returns, in order to monitor
changes in disposable income. These tax returns can
provide a basis for proposing plan modiﬁcations, or requiring the ﬁling of amended schedules. It would be
cost prohibitive to require trustees to ﬁle a motion
every year that a case is pending, in order to obtain
post-petition tax returns in every case, given the number of cases each trustee handles. The Local Plan Form
effectively balances the debtor’s duty to ﬁle post-petition federal tax returns with the trustee’s duty to ensure that the debtor is complying with the Code. The
Local Plan Form provision at issue here permissibly
streamlines the procedure by which a trustee obtains

App. 36
the debtors’ post-petition tax returns, and promotes
cost efﬁciencies and efﬁcient administration.
To the extent the Debtors contend that enforcing
the Local Plan Form provision at issue here deprives
them of rights or violates their privacy, the Court ﬁnds
that the Debtors have failed to prove any deprivation
or violation. The Debtors do not allege that the Trustee
is seeking their post-petition tax returns for an improper purpose. In fact, it appears that the Debtors intent in objecting to this local plan provision is to
purposely increase the cost to the Trustee of obtaining
an important source of ﬁnancial information, the tax
returns, and to avoid the disclosure of any changes in
their projected disposable income, in order to prevent
the Trustee from seeking modiﬁcation pursuant to
Code § 1329. Under the circumstances, any encroachment on the Debtors’ rights is outweighed by the Trustee’s competing duty to investigate and analyze the
ﬁnancial affairs of the Debtors and to seek to modify
their plan, if appropriate. There is no real distinction
between the Local Plan Form provision that requires
debtors to provide the trustee with copies of their federal tax returns and the Code’s requirement that debtors ﬁle these returns with the Court while the case is
pending. The Debtors’ objection raises a distinction
without a difference. Further, the turnover of post-petition state tax returns causes no greater infringement
upon debtors, given the requirement for turnover of
the federal tax returns.
Upon consideration of the foregoing and the entire
record, it is the determination of the Court that the

App. 37
Debtors are required to provide the Trustee with copies of their post-petition tax returns pursuant to the
Local Rules and Local Plan Form.
V.

Conclusion

The Court ﬁnds that the Debtors must provide
Harley Davidson with notice of their proposed change
to the treatment of Harley Davidson’s claim, or they
must obtain Harley Davidson’s consent to the stipulated order conﬁrming the Plan. Additionally, the
Court ﬁnds that use of the Local Plan Form is mandatory in this case and permissibly requires the Debtors
to submit copies of their post-petition tax returns directly to the Trustee.
Wherefore, based upon the foregoing and for good
cause shown;
IT IS ORDERED that the Trustee’s objections to
conﬁrmation of the Debtors’ Plan, as submitted, are
sustained, and conﬁrmation is denied.
IT IS FURTHER ORDERED that the Debtors
have thirty (30) days from entry of this order to ﬁle an
amended plan consistent with this ruling.
DATED AND SIGNED ABOVE.

App. 38
IN THE UNITED STATES BANKRUPTCY COURT
FOR THE DISTRICT OF ARIZONA
In re:

Chapter 13

JOHN ROBERT REICHARD, Case No.
2:16-bk-12633-BMW
and
ERICKA RAE REICHARD,
Debtor(s).

STIPULATED ORDER CONFIRMING
FIRST AMENDED
CHAPTER 13 PLAN
(Filed Mar. 12, 2019)

The Chapter 13 First Amended Plan having been
properly noticed out to creditors and any objection to
conﬁrmation having been resolved,
IT IS ORDERED conﬁrming the Chapter 13
First Amended Plan (“Plan”) of the Debtors as follows:
(A) INCOME SUBMITTED TO THE PLAN.
Debtors shall submit the following amounts of future
income to the Trustee for distribution under the Plan.
(1) Future Earnings or Income. Debtors shall
make the following monthly Plan payments:
Months
1-10
11-60

Amount
$1,165.00
$1,190.00

The payments are due on or before the 2nd day of
each month commencing December, 2016. Debtors are
advised that when payments are remitted late, additional interest may accrue on secured debts which may

App. 39
result in a funding shortfall at the end of the Plan
term. Any funding shortfall must be cured before the
plan is deemed completed.
The Debtor(s) shall provide to the Trustee copies
of their federal and state income tax returns for postpetition years 2018 – 2020 within 14 days of ﬁling
them. The purpose is to assist the Trustee in determining any change in Debtor(s)’ annual disposable income.1
(2)

Other Property.

NONE

(B) DURATION. This Plan shall continue for 60
months from the ﬁrst regular monthly payment described in Paragraph (A)(1) above. If at any time before
the end of the Plan period all claims are paid, then the
Plan shall terminate. In no event will the term of the
Plan be reduced to less than 60 months, exclusive of
any property recovered by the Trustee, unless all allowed claims are paid in full.
(C) CLASSIFICATION AND TREATMENT
OF CLAIMS. Claims shall be classiﬁed as listed below.
1

Petitioner(s) expressly reserve the right to assert their
Thirteenth Amendment privilege from the U.S. Constitution
against involuntary servitude, should the Chapter 13 Trustee attempt to modify their plan unilaterally and increase their
monthly plan payments. The Petitioners assert that they have not
waived their Constitutional Right against involuntary servitude
by voluntarily ﬁling their bankruptcy petition. In re Clemente,
409 B.R. 288, 293 (Bankr. D. NJ 2009). Petitioners further assert,
a Chapter 13 Trustee demanding debtors assist him in determining changes to their annual disposable income, is barred by In re
Anderson, 21 F.3d 355, 358 (9th Cir. 1994).

App. 40
The Plan and this Order shall not constitute an informal proof of claim for any creditor. This Order does not
allow claims. Claims allowance is determined by § 502
and the Federal Rules of Bankruptcy Procedure. The
Trustee shall receive the percentage fee on the Plan
payments pursuant to 28 U.S.C. § 586(e), then the
Trustee will pay secured creditors or allowed claims in
the following order:
(1)

Administrative expenses:
Attorney Fees. David Allegrucci, shall be allowed total compensation of $00.00 through
the plan. Counsel received $00.00 prior to ﬁling this case and will be paid outside the Plan
by Metlife Insurance Company dba Hyatt Legal Plans. Any fee received above $1,500.00
will be disclosed in an amended Rule 2016(b)
notice.

(2)

Claims Secured by Real Property:
(a) Lake View Loan Servicing, LLC, secured by a ﬁrst deed of trust in the
Debtor(s)’ residence, shall be paid the
prepetition arrearage of $00.00 with 0%
interest. The parties entered a loan modiﬁcation agreement which dealt with the
arrears set forth within proof of claim 241 and thereby resolves the objection to
conﬁrmation at case docket #42. Regular
post-petition payments will be made directly by the Debtor(s) to the secured
creditor.

App. 41
(b) Cortessa Community Association, secured by a statutory lien in the Debtors’
residence for unpaid assessments, shall
be paid the prepetition arrearage of
$1,267.40 with 0% interest. All post-petition payments shall be paid directly by
the Debtors to the HOA..
(3)

Claims Secured by Personal Property:
(a) Alphera Financial/BMW Financial
Services, LLC, secured by a lien in a
2016 Dodge Durango, shall be paid 57
monthly conduit payments in the amount
of $654.19 each month for a total of
$37,257.08 through the Trustee towards
a total secured claim of $37,257.08 accruing 7.750% interest. Following completion of the Plan, the Debtor(s) shall
resume direct payments to the lender
through the end of the contract period,
unless the Debtor(s) elect to surrender
the aforementioned vehicle or said claim
is paid in full at that time.
(b) Ally Financial, secured by a lien in a
2013 Chevrolet Equinox, shall be paid a
secured claim of $13,570.00 with 4.90%
interest. The creditor will receive adequate protection payments of $135.00 per
month. The balance of the debt shall be
classiﬁed as unsecured.
(c) Harley-Davidson Credit Corp., secured by a lien in a 2008 Harley-Davidson
FXDC Dyna Super Glide, shall be paid a
secured claim of $6,255.00 with 7%

App. 42
interest. The creditor will receive adequate protection payments of $ 65.00 per
month. The balance of the debt shall be
classiﬁed as unsecured.
(4)

Unsecured Priority Claims:
NONE

(5)

Surrendered Property.
Upon conﬁrmation of this plan or except as
otherwise ordered by the Court, bankruptcy
stays are lifted as to collateral to be surrendered. Such creditor shall receive no distribution until the creditor timely ﬁles a claim or
an amended proof of claim that reﬂects any
deﬁciency balance remaining on the claim. Assuming the creditor has an allowed proof of
claim, should the creditor fail to ﬁle an
amended claim consistent with this provision,
the Trustee need not make any distributions
to that creditor. Debtors surrender the following property:
The Debtors will surrender None in which
NA has a security interest.

(6)

Other Provisions:

NONE

(7)

Unsecured Nonpriority Claims. Claims allowance is determined by § 502 and the Federal
Rules of Bankruptcy Procedure. Allowed unsecured claims shall be paid pro rata the balance of the payments under the Plan and any
unsecured debt balance remaining unpaid
upon completion of the Plan may be discharged as provided in 11 U.S.C. § 1328.

App. 43
(D) EFFECTIVE DATE AND VESTING. The
effective date of the Plan shall be the date of this Order.
Property of the estate remains property of the
bankruptcy estate upon conﬁrmation, subject to the
Trustee asserting a claim to any additional property of
the estate pursuant to 11 U.S.C. § 1306. Said claim of
the Trustee also subject to the holding of In re Burgle,
239 B.R. 406, 410 (BAP 9th Cir. 1999) as to when a
postpetition asset has 5 to be turned over to a Chapter
13 Trustee by the debtors. The Debtor(s) further reserve the right to dismiss one or both of them from this
proceeding pursuant to 11 U.S.C. 5 § 1307(b) if the
postpetition property is sufﬁcient to allow them to continue to reorganize their ﬁnances outside the bankruptcy process. Should one or both of the debtors 7
exercise their statutory right of dismissal, based upon
future events, they reserve the right to assert at that
time such a dismissal is in good faith because it is
based upon 3 events that could not be projected at the
time of conﬁrmation rendering In re Rosson, 545 F.3d
764 (9th Cir. 2008) inapplicable to such a request.
Likewise, the Debtors reserve the right to assert
that such future unknown property interests are not
“known or) virtually certain information about the
debtor’s future income or expenses” requiring an adjustment to their confirmed plan of reorganization.
In re Lanning, 130 S.Ct. 2464, 2475 (2010).

ORDER SIGNED ABOVE

App. 44
Approved as to Form and Content By:
[LOGO]

2019.03.08
15:07:25-07'00'

Russell Brown, Trustee
/s/ Joseph J. Tirello, Jr.
Joseph J. Tirello, Jr. Esq.
Attorney for LakeView Loan Servicing, LLC
/s/ David Allegrucci
David Allegrucci
Attorney for Petitioner(s)
The debtor(s) certify: All required State and Federal income tax returns have been ﬁled. No domestic
support obligation is owed or, if owed, such payments
are current since the ﬁling of the Petition.
Debtor

Debtor

David Allegrucci
Attorney for Petitioner(s)
The debtor(s) certify: All required State and Federal income tax returns have been ﬁled. No domestic

App. 45
support obligation is owed or, if owed, such payments
are current since the ﬁling of the Petition.
John Reichard
Debtor
Ericka Reichard
Debtor

[Notice Recipients Omitted]

App. 46
Subject: ^_NACBA^_: Local Rule Requires Automatic Submission of Tax Returns During Plan
Date:

5/28/2020 8:28:37 AM US Mountain Standard Time

From:

nacba@nacba.com

To:

alopllc@aol.com

COURT: Local Rule Requires Automatic Submission of Tax Returns During Plan
The Arizona District Court found that the District of
Arizona’s Local Plan Form for chapter 13 bankruptcies
under which all debtors must automatically submit
their tax returns during the life of their plans does not
conﬂict with the Code. Reichard v. Brown (In re Reichard), No. 19-2010 (D. Ariz. March 12, 2020) (unpublished).
In 2017, Fed. R. Bankr. P. 3015 was amended to provide
that a chapter 13 debtor must use federal Ofﬁcial Form
113, unless there is a local form governing chapter 13
plans. Part 2.3 of the Ofﬁcial Form 113 offers three alternatives for dealing with a debtor’s tax returns during the course of his plan, the second of which requires
the debtor to provide all tax returns ﬁled during the
plan to the trustee within 14 days of ﬁling with the
taxing authority. In response, the District of Arizona
amended its own Local Plan Form to mirror that second alternative.

App. 47
Local Rule Requires Automatic Submission of
Tax Returns During Plan
Posted by NCBRC – May 14, 2020
The Arizona District Court found that the District of
Arizona’s Local Plan Form for chapter 13 bankruptcies
under which all debtors must automatically submit
their tax returns during the life of their plans does not
conﬂict with the Code. Reichard v. Brown (In re Reichard). No. 19-2010 (D. Ariz. March 12, 2020) (unpublished).
In 2017, Fed. R. Bankr. P, 3015 was amended to provide
that a chapter 13 debtor must use federal Ofﬁcial Form
113, unless there is a local form governing chapter 13
plans. Part 2.3 of the Ofﬁcial Form 113 offers three alternatives for dealing with a debtor’s tax returns during the course of his plan, the second of which requires
the debtor to provide all tax returns ﬁled during the
plan to the trustee within 14 days of ﬁling with the
taxing authority. In response, the District of Arizona
amended its own Local Plan Form to mirror that second alternative.
In this case, the trustee objected to the debtors’ proposed plan because it did not provide for automatically
turning over their tax returns. The bankruptcy court
sustained the objection and ordered the debtors to include the provision in their plan. They appealed to the
district court.
The central issue on appeal was whether the requirement in the local rule that debtors automatically ﬁle
their tax returns during the course of their chapter 13

App. 48
plan conﬂicts with the Code. The debtors pointed to
section 521(f ), which provides that “upon the request
of the court,” the trustee, or any party in interest, debtors in bankruptcy shall submit post-petition tax returns at the same time they ﬁle the returns with the
taxing authority. They argued that, under section
521(f ), the trustee must make a separate request for
each tax return.
The district court disagreed. The court reasoned that
nothing in section 521(f ) precludes districts from creating local rules with a tax ﬁling requirement and, in
fact, the court noted that similar rules are widespread
among Ninth Circuit districts. In afﬁrming, the court
found that the local rule facilitates the trustee’s obligations under sections 704(a)(4) and 1329(a)(1), to investigate a debtor’s ﬁnances and seek modiﬁcation of a
chapter 13 plan if the debtor’s ability to pay increases
post-conﬁrmation. Furthermore, as a practical matter,
the court found that compliance with section 521(f ), requiring trustees to seek tax returns each year for each
debtor is cumbersome and costly.
The court rejected the debtor’s argument that the Local Plan Form conﬂicts with the Code because section
521(f ) sets out the only method for obtaining a debtor’s
post-conﬁrmation tax returns. The court noted that tax
documents have been found to be discoverable in adversary proceedings and for purposes of a Rule 2004
examination without invocation of section 521(f ). It
concluded that, while section 521(f ) is one method of
obtaining a debtor’s tax returns, it is not the only
available method and that “the Local Plan Form

App. 49
permissibly creates a reasonable and efﬁcient way for
the Trustee to receive Debtors’ post-petition tax returns and does so in a way that complies with FRBP
3015 and other applicable law.” It afﬁrmed.
The debtor has appealed the decision to the Ninth Circuit Court of Appeals, No. 20-15661.
Reichard D Ariz March 2020
Tags: Plan conﬁrmation

App. 50
“SUBCHAPTER I—GENERAL PROVISIONS
“§ 1001. Trustee
“(a) APPOINTMENT.—Except as provided by section 1.052, in a case under this chapter, the United
States trustee—
“(1) shall appoint 1 disinterested individual
to serve as trustee from the panel of private trustees under section 586(a) of title 28 or a standing
trustee under subsection (b) of that section who
meets the requirements of a trustee under section
522 of this title; or
“(2)
“(b)

may serve as trustee.

DUTIES.—The trustee shall—

“(1) perform the duties required under paragraphs (2) through (5) and (7) of section 704;
“(2) appear and be heard at any hearing that
concerns—
“(A)
lien; or

the value of property subject to a

“(B) conﬁrmation of a repayment plan, a
residence plan, or a property plan;
“(3) advise, other than on legal matters, and
assist the debtor in the formulation of, and performance under, any plan;
*

*

*

Regulations) for a loan. of the most similar duration and rate type; and

App. 51
“(2) for the purpose of subsection (d)(2), the
current average prime offer rate for motor vehicle
ﬁnancing of the most similar duration and rate
type, as determined by the Bureau of Consumer
Financial Protection under section 201(e) of the
Consumer Bankruptcy Reform Act of 2020.

“§ 1025. Payments under a repayment plan
“(a)

DUTIES OF TRUSTEE.—The trustee shall—

“(1) collect and be accountable for any future
income of the debtor that is designated for a payment to a creditor under a repayment plan;
“(2) accept and be accountable for any
property of the estate tendered by the debtor
pursuant to a repayment plan under section
1022(a)(1)(A)(i)(II); and
“(3) reduce to money and be accountable for
any property of the estate tendered by the debtor
under the repayment plan as expeditiously as is
compatible with the best interests of the parties in
interest.
“(b)

PAYMENTS.—

“(1) In general.—Except as provided by section 1027 and unless the court orders otherwise,
not
*

*

*

turn) for the most recent tax year ending immediately before the commencement of the

App. 52
case and for which a Federal income tax return was ﬁled.
“(C) A W-2 form issued by each employer for the tax year preceding the year the
petition is ﬁled.
“(D) Other evidence of payment received within 60 days before the date of the
ﬁling of the petition that establishes the
debtor’s income.
“(2) If the debtor’s annual income creates or
increases the minimum payment obligation as described in clause (ii) or (iii) of section 101(54)(B) of
this title, the debtor shall, to the extent not already provided under paragraph (1), provide to the
trustee as documentation of income—
“(A) a copy of the Federal income tax return required under applicable law (or at the
election of the debtor, a transcript of such return) for the most recent tax year ending immediately before the commencement of the
case and for which a Federal income tax return was required and ﬁled; and
*

*

*

“(2) the debtor is not required to ﬁle the
statement of annual income required by subsection (a)(1)(B)(v).
“(d)

In a case under chapter 7 or 11:
“(1)

The debtor shall provide—

“(A) not later than 7 days before the
date ﬁrst set for the ﬁrst meeting of creditors,

App. 53
to the trustee a copy of the Federal income tax
return required under applicable law (or at
the election of the debtor, a transcript of such
return) for the most recent tax year ending
immediately before the commencement of the
case and for which a Federal income tax return was ﬁled; and
“(B) at the same time the debtor complies with subparagraph (A), a copy of such
return (or if elected under subparagraph (A),
such transcript) to any creditor that timely
requests such copy.
“(2) If the debtor fails to comply with subparagraph (A) or (B) of paragraph (1), the court shall
dismiss the case unless the debtor demonstrates
that the failure to so comply is due to circumstances beyond the debtors’s control.
“(3) If a. creditor requests a copy of such tax
return or such transcript and. if the debtor fails to
provide a copy of such tax return or such transcript to such creditor, at the time the debtor provides such tax return or such transcript to the
trustee, the court shall dismiss the case unless the
debtor demonstrates that the failure to provide a
copy of such tax return or such transcript is due to
circumstances beyond the debtor’s control.
“(e) Failure by the debtor to disclose a cause of
action in a schedule required to be filed under this
section shall not alone be grounds to dismiss a lawsuit
brought to enforce the cause of action.
“(f ) If requested by the United States trustee or
by the trustee, the debtor shall provide—

App. 54
“(1) a document that establishes the identity
of the debtor, including a driver’s license, passport,
or other document that contains a photograph of
the debtor; or
“(2) such other personal identifying information relating to the debtor that establishes the
identity of the debtor.
“(g) At the request of the court, the trustee, or the
United States trustee, a debtor under chapter 10 or 11
who is an individual shall ﬁle with the court—
“(1) at the same time ﬁled with the taxing
authority, a copy of each Federal income tax return
required under applicable law (or at the election of
the debtor, a transcript of such tax return) with respect to each tax year of the debtor ending while
the case is pending under such chapter;
“(2) at the same time ﬁled with the taxing
authority, each Federal income tax return required under applicable law (or at the election of
the debtor, a transcript of such tax return) that
had not been ﬁled with such authority as of the
date of the commencement of the case and that
was subsequently ﬁled, for any tax year of the
debtor ending in the 3-year period ending on the
date of the commencement of the case; and
“(3) a copy of each amendment to any Federal income tax return or transcript ﬁled with the
court under paragraph (1) or (2).
“(h)(1) Notwithstanding any other provision of
this title, if the debtor fails to file a tax return that
becomes due after the commencement of the case or to

App. 55
properly obtain an extension of the due date for ﬁling
such return, the taxing authority may request that the
court enter an order converting or dismissing the case.
“(2) If the debtor does not ﬁle the required return
or obtain the extension referred to in paragraph (1)
within 90 days after a request is ﬁled by the taxing authority under that paragraph, the court shall convert
or dismiss the case, whichever is in the best interests
of creditors and the estate.”.
(ff )

EXEMPTIONS.—

(1) IN GENERAL.—Section 522 of title 11,
United States Code, is amended by striking subsections (a) through (q) and inserting the following:
“(a)

In this section—

“(1) the term ‘conforming loan limit’ means
that applicable limitation for the debtor’s county
of residence governing the maximum original
principal obligation for a mortgage secured by a
single-family residence, as determined and adjusted annually under section 302(b)(2) of the Federal National Mortgage Association Charter Act
(12 U.S.C. 1717(b)(2)) and section 305(a)(2) of the
Federal Home Loan Mortgage Corporation Act (12
U.S.C. 1454(a)(2));
“(2) the term ‘dependent’ includes spouse,
whether or not actually dependent; and
“(3)

the term ‘value’ means value—

App. 56
Guide to Judiciary Policy
Vol. 4: Court and Case Management
Ch. 8: Bankruptcy Case Policies
§ 810 Overview
This chapter contains national judiciary policies regarding bankruptcy cases that were adopted either by
the Judicial Conference of the United States or by the
Director of the Administrative Ofﬁce of the U.S. Courts
(AO). They include:
•

Procedures adopted by the Judicial Conference regarding the chapter 7 fee waiver provisions of the Bankruptcy Abuse Prevention
and Consumer Protection Act of 2005
(BAPCPA) (see: § 820, below); and

•

Director’s Guidance Regarding Tax Information under 11 U.S.C. § 521 (see: § 830).

Note: This guidance is available on uscourts.gov, to
which local courts should direct the public and members of the local bar.
§ 815 Applicability
This chapter applies to the bankruptcy courts.
Last revised (Transmittal 04-017) April 10, 2018

App. 57
§ 830 Guidance for Protection of Tax Information
The Director of the AO promulgates this Guidance Regarding Tax Information under 11 U.S.C. § 521 as required by Section 315(c) of the Bankruptcy Abuse
Prevention and Consumer Protection Act of 2005 (the
Act) to safeguard the conﬁdentiality of tax information,
including tax returns, transcripts of returns, amendments to returns and any other document containing
tax information provided by the debtor under 11 U.S.C.
§ 521.
§ 830.10 Debtor’s Duty to Provide Tax Information
(a) Sections 521(e) and (f ) of the Bankruptcy
Code, which governs the provision of tax information, applies only to individual debtors ﬁling under chapter 7, 11 or 13 of the
Bankruptcy Code.
(b) Section 521(e)(2) requires a debtor to provide
the trustee and any requesting creditor a copy
or transcript of the federal income tax return
required under applicable law for the most recent tax year ending immediately before the
commencement of the case if ﬁled.
(c) Fed. R. Bankr. P. 4002(b)(5) provides that the
debtor’s obligation to provide tax information
to the trustee and creditors is subject to these
procedures.
(d) Section 521(f ) requires a debtor, on the request of the court, the United States trustee,
or any party in interest, to ﬁle with the
court certain tax information ﬁled with the

App. 58
taxing authority during the pendency of the
bankruptcy case.
§ 830.20 Restricted Access to Tax Information
(a) For tax information to be ﬁled with the court,
it must be entered into a court’s CM/ECF system by selection of the “tax information” event
from the CM/ECF event list.
(1) This event limits access to the ﬁled tax
information to those users assigned a
“court” log in (i.e., judicial ofﬁcers and
court employees).
(2) All other users (including PACER users)
will have access to a docket event indicating that tax information has been ﬁled,
but will not have access to the tax information.
(b) No tax information ﬁled with the bankruptcy
court or otherwise provided by the debtor
should be available to the public via the Internet, PACER, or CM/ECF.
§ 830.30 Tax Information Disclosure Requests
To gain access to a debtor’s tax information under 11
U.S.C. § 521(f ), the United States trustee or bankruptcy administrator, case trustee, and any party in interest, including a creditor, must follow the procedures
set forth below:

App. 59
(a) A written request that a debtor ﬁle copies of
tax returns with the court under 11 U.S.C.
§ 521(f ) must be ﬁled with the court and
served on the debtor and debtor’s counsel, if
any.
(b) To obtain access to debtor’s tax information
that is ﬁled with the bankruptcy court, the
movant must ﬁle a motion with the court,
which should include:
(1) a description of the movant’s status in the
case, to allow the court to ascertain
whether the movant may properly be
given access to the requested tax information;
(2) a description of the speciﬁc tax information sought;
(3) a statement indicating that the information cannot be obtained by the movant
from any other source; and
(4) a statement showing a demonstrated
need for the tax information.
(c) An order granting a motion for access to tax
information should include language advising
the movant that the tax information obtained
is conﬁdential and should condition dissemination of the tax information as appropriate
under the circumstances of a particular case.
At the discretion of the court, the order may
state that sanctions may be imposed for improper use, disclosure, or dissemination of the
tax information.

App. 60
§ 830.40 Approved Access to Tax Information
(a) Local courts have authority to determine procedures, the details of which are within the
discretion of the court, for transmitting the
tax information to the movant when access
has been granted. Possible methods include
mailing a hard copy, or developing procedures
to view tax information at the clerk’s ofﬁce.
(b) The transmission of the tax information to the
movant, by whatever means the court deems
appropriate, should be recorded as a docket
event in CM/ECF so that the docket will reﬂect that the court has taken the action necessary to effect the provisions of its order
granting access.
§ 830.50 Required Redaction of Debtor Tax Information
(a) The following redaction requirements apply
to all tax information provided in accordance
with section 521 of the Bankruptcy Code:
(b) Debtors providing tax information under 11
U.S.C. § 521 should redact personal information according to the criteria set forth in
Fed. R. Bankr. P. 9037. A debtor should therefore redact personal identiﬁers in any tax information required to be ﬁled with the court
or provided to the trustee or creditor(s), in either electronic or paper form, as follows:

App. 61
(1) Social Security Numbers
If an individual’s social security number
is included, only the last four digits of
that number should appear.
(2) Individual Taxpayer Identiﬁcation Number (ITIN)
If an individual taxpayer has an ITIN instead of a social security number, only the
last four digits of the ITIN should appear.
(3) Names of Minor Children
If a minor child is identiﬁed, only the
child’s initials should appear.
(4) Dates of Birth
If an individual’s date of birth is included,
only the year should appear.
(5) Financial Account Numbers
If ﬁnancial account numbers are provided, only the last four digits of these
numbers should appear.
(c) Court employees are not responsible for redacting any of the personal identifying information contained in documents ﬁled with the
court. The responsibility for redacting personal identiﬁers rests solely with the debtor.
(d) Failure to follow these procedures waives the
protection afforded by them.

App. 62
(1) Failure to select the “tax information”
event in the CM/ECF system to ﬁle a document containing tax information with
the court will make the document available to the public via the internet, PACER,
or CM/ECF.
(2) Filing a document containing unredacted
personal information with the court
waives the protection of Fed. R. Bankr. P.
9037. The clerk of court is not required to
review documents ﬁled with the court,
and so the responsibility to redact ﬁlings
rests with the counsel, parties, and others
who ﬁle such documents. See: Fed. R.
Bankr. P. 9037(g) advisory committee’s
note.

App. 63
David Allegrucci (#12611)
ALLEGRUCCI LAW OFFICE, PLLC
307 North Miller Road
Buckeye, Arizona 85326
PH (623) 412-2330
FAX (623) 878-9807
david.allegrucci@azbar.org
Attorney for Petitioner(s)
UNITED STATES BANKRUPTCY COURT
DISTRICT OF ARIZONA
In re

Case No.
JOHN ROBERT REICHARD, 2-16-bk-12633-BMW
and
CHAPTER 13 PLAN
ERICKA RAE REICHARD,
AND APPLICATION
Debtor(s).
FOR PAYMENT OF
ADMINISTRATIVE
SSN xxx-xx-3063
EXPENSES
SSN xxx-xx-8225
18128 W. Mission Lane
Waddell, Arizona 85355

🗹 Original
⬜ Amended
⬜ Modiﬁed
⬜ Plan payments include post-petition
mortgage payments

This Plan may affect creditor rights. If you object to
the treatment of your claim as proposed in this
Plan, you must ﬁle a written objection by the
deadline set forth in a Notice of Date to File
Objections to Plan served on parties in interest.
If this is a joint case, then “Debtor” means both Debtors. This plan does not allow claims or affect the timeliness of any claim. To receive payment on your claim,

App. 64
you must ﬁle a proof of claim with the Bankruptcy
Court, even if this Plan provides for your debt. The applicable deadlines to ﬁle a proof of claim were speciﬁed
in the Notice of Commencement of Case. Except as provided in § 1323(c), a creditor who disagrees with the
proposed treatment of its debt in this Plan must timely
ﬁle an objection to the Plan.
X

See Section (J), Varying Provisions.

⬜

This is an Amended or Modified Plan. The reasons for filing this Amended or Modified Plan
are:

(A) Plan Payments and Property to be Submitted to the Plan.
(1) Plan payments start on December 2, 2016.
The Debtor shall pay the Trustee as follows:
$1,165.00 each month for month 1 through
month 60.
The proposed plan duration is 60 months. The applicable commitment period is 60 months. Section
1325(b)(4).
X See Section (J), Varying Provisions.
(2) In addition to the plan payments, Debtor will
submit the following property to the Trustee:
NONE
X See Section (J), Varying Provisions.
(B) Trustee’s Percentage Fee. Pursuant to 28
U.S.C. § 586(e), the Trustee may collect the percentage fee from all payments and property received, not to exceed 10%.
X See Section (J), Varying Provisions.

App. 65
(C) Treatment of Administrative Expenses and
Claims. Except adequate protection payments
under (C)(1), post-petition mortgage payments under (C)(4), or as otherwise ordered by the Court,
the Trustee will make disbursements to creditors
after the Court conﬁrms this Plan. Unless otherwise provided in Section (J), disbursements by the
Trustee shall be pro rata by class (except for adequate protection payments) and made in the following order:
(1) Adequate protection payments. Section
1326(a)(1)(C) requires adequate protection payments to be made to creditors secured by personal
property. Pursuant to Local Bankruptcy Rule
2084-6, the Trustee is authorized to make pre-conﬁrmation adequate protection payments to certain
secured creditors without a Court order, provided
the claim is properly listed on Schedule D, the
creditor ﬁles a secured proof of claim that includes
documentation evidencing a perfected security
agreement, and the debtor or creditor sends a letter to the trustee requesting payment of pre-conﬁrmation adequate protection payments. The
Trustee will apply adequate protection payments
to the creditor’s secured claim. After conﬁrmation,
unless the Court orders otherwise, adequate protection payments will continue in the same
amount until claims to be paid before these claimants are paid in full, unless the conﬁrmed plan or
a court order speciﬁes a different amount.. If a secured creditor disagrees with the amount of
the proposed adequate protection payments
or the plan fails to provide for such payments, the creditor may ﬁle an objection to

App. 66
conﬁrmation of this plan, ﬁle a motion pursuant to §§ 362, 363, or both.
Creditor

Property Description

Ally Financial

Monthly
Amount
2013 Chevrolet Equinox $135.00

Alphera

2016 Dodge Durango

Harley Davidson 2008 Harley Davidson
Financial

$654.19
$ 65.00

⬜ See Section (J), Varying Provisions.
(2) Administrative expenses. Section 507(a)(2).
(a) Attorney fees. Debtor’s attorney received
$00.00 before ﬁling. The balance of
$1,500.00 paid outside the plan by
Metlife Insurance Company dba Hyatt Legal Plans or an amount approved by the
Court upon application shall be paid by
the Trustee.
X

See Section (J), Varying Provisions.

(b) Other Administrative Expenses. NONE
⬜ See Section (J), Varying Provisions.
(3) Leases and Unexpired Executory Contracts. Pursuant to § 1322(b), the Debtor assumes or rejects the following lease or
unexpired executory contract. For a lease or
executory contract with an arrearage to cure,
the arrearage will be cured in the plan payments with regular monthly payments to be
paid direct by the Debtor. The arrearage

App. 67
amount to be adjusted to the amount in the
creditor’s allowed proof of claim.
(a) Assumed:
Creditor &
Property
Description

Estimated Arrearage
Amount
NONE
Arrearage Through Date

(b) Rejected:
Creditor

Property Description
NONE

⬜ See Section (J), Varying Provisions.
(4) Claims Secured Solely by Security Interest in Real Property. A creditor identiﬁed in
this paragraph may mail the Debtor all correspondence, notices, statements, payment coupons, escrow notices, and default notices
concerning any change to the monthly payment
or interest rate without such being a violation
of the automatic stay. Unless otherwise stated
below, Debtor is to pay post-petition payments
direct to the creditor and prepetition arrearages shall be cured through the Trustee. No
interest will be paid on the prepetition arrearage or debt unless otherwise stated. The arrearage amount is to be adjusted to the
amount in the creditor’s allowed proof of
claim. Except as provided in Local Bankruptcy Rule 2084-23 if a creditor gets unconditional stay relief, the actual cure amount to
be paid shall be adjusted by the Trustee pursuant to the creditor’s allowed proof of claim.
If the Debtor is surrendering an interest in

App. 68
real property, such provision is in paragraph
(E). The Debtor is retaining real property and
provides for such debt as follows:
Creditor/Servicing Agent &
Property Description
LoanCare
SFR 18128 W. Mission Lane
Waddell, Arizona 85355

Collateral Value &
Valuation Method
$213,000.00
Debtors’ estimate

Post-Petition Mortgage Estimated Arrearage
Payments
Arrearage Through Date
$1,308.73
$ 00.00
NA
🗹 Debtor will pay direct to Creditor;
or
⬜ Included in Plan payment.
Trustee will pay creditor
⬜ See Section (J), Varying Provisions.
(5) Claims Secured by Personal Property or a
Combination of Real and Personal Property. Pursuant to § 1325(a), a secured creditor
listed below shall be paid the amount shown
as the Amount to be Paid on Secured Claim,
with such amount included in the Plan payments. However, if the creditor’s proof of claim
amount is less than the Amount to be Paid on
Secured Claim, then only the proof of claim
amount will be paid. Any adequate protection
payments are as provided in Section (C)(1)
above. If a creditor fails to ﬁle a secured claim
or ﬁles a wholly unsecured claim, the debtor
may delete the proposed payment of a secured
claim in the order conﬁrming plan.

App. 69

♦

Creditor and
Property Description
Alphera Financial
2016 Dodge Durango

Value of Collateral
and Valuation
Method
$33,500.00
Debtor’s estimate

Debt
Amount
$38,375.04

Amount to be Paid Interest Rate
On Secured Claim Contract Rate
Paid in full
thru conduit
payments

Secured Creditor Alphera Financial debt was
incurred less than 910 days prior to the ﬁling of
this proceeding, therefore making it a nonmodiﬁable debt.

♦

Ally Financial
2013 Chevrolet Equinox

♦

Harley Davidson Financial $ 6,364.26
2008 Harley Davidson Super
Glide

$19,206.81

$13,570.00
$13,570.00
KBB Private Party
value

7% or contract
rate whichever
is lower

$ 6,500.00
Debtors’ estimate
of value

7% or contract
rate whichever
is lower

X

$ 6,500.00

See Section (J), Varying Provisions.
(6) Priority, Unsecured Claims. All allowed
claims entitled to priority treatment under
§ 507 shall be paid in full pro rata.

App. 70
(a) Unsecured Domestic Support Obligations. The Debtor shall remain current on
such obligations that come due after ﬁling the petition. Unpaid obligations before the petition date to be cured in the
plan payments.
Creditor

Estimated Arrearage
Amount
NONE
Arrearage Through Date

(b) Other unsecured priority claims.
Creditor

Type of Property Debt
NONE
Estimated Amount

⬜ See Section (J), Varying Provisions.
(7) Co-debtor Claims. The following co-debtor
claim is to be paid per the allowed claim, pro
rata before other unsecured, non-priority
claims.
Creditor Co-debtor Name Estimated Debt
Amount
NONE
⬜ See Section (J), Varying Provisions.
(8) Non-priority, Unsecured Claims. Allowed
unsecured, non-priority claims shall be paid

App. 71
pro rata the balance of payments under the
Plan.
X

See Section (J), Varying Provisions.

(D) Lien Retention. Secured creditors shall retain
their liens until payment of the underlying debt
determined under non-bankruptcy law or upon
discharge, whichever occurs first. Federal tax
liens shall continue to attach to property excluded from the bankruptcy estate under 11 U.S.C.
§541(c)(2) until the Internal Revenue Service is required to release its liens in accordance with nonbankruptcy law.
⬜ See Section (J), Varying Provisions.
(E) Surrendered Property. Debtor surrenders
the following property to the secured creditor.
Upon conﬁrmation of this Plan or except as
otherwise ordered by the Court, bankruptcy
stays are lifted as to the collateral to be surrendered. Any secured claim ﬁled by such
creditor shall receive no distribution until the
creditor ﬁles an allowed unsecured claim or
an amended proof of claim that reﬂects any
deﬁciency balance remaining on the claim.
Should the creditor fail to ﬁle an
amended unsecured claim consistent
with this provision, the Trustee need not
make any distributions to that creditor.
Creditor

Property to be surrendered
NONE

App. 72
(F) Attorney Application for Payment of Attorney Fees. Counsel for the Debtor has received a
prepetition retainer of $00.00, to be applied
against fees and costs incurred. Fees and costs exceeding the retainer shall be paid from funds held
by the Chapter 13 Trustee as an administrative
expense. Counsel will be paid as selected in paragraph (1) or (2) below:
(1)(a) Flat Fee. Counsel for the Debtor has
agreed to a total sum of $
to
represent the Debtor. Counsel has agreed to
perform the following services through conﬁrmation of the plan:
X All of the below, except Additional Services.
⬜ Review of ﬁnancial documents and information.
⬜ Consultation, planning, and advice, including ofﬁce visits and telephone communications.
⬜ Preparation of Petition, Schedules, Statement of Financial Affairs, Master Mailing
List.
⬜ Preparation and ﬁling of Chapter 13
Plan, Plan Analysis, and any necessary
amendments.
⬜ Attendance at the § 341 meeting of creditors.
⬜ Resolution of creditor objections and
Trustee recommendations, and attendance at hearings.
⬜ Reviewing and analyzing creditor claims
for potential objections, and attendance
at hearings.

App. 73
⬜ Responding to motions to dismiss, and attendance at hearings.
⬜ Responding to motions for relief from the
automatic stay, and attendance at hearings.
⬜ Drafting and mailing of any necessary
correspondence.
⬜ Preparation of proposed order conﬁrming
the plan.
⬜ Representation regarding the pre-ﬁling
credit brieﬁng and post-ﬁling education
course.
(b) Additional Services. Counsel for the
Debtor has agreed to charge a ﬂat fee for
the following additional services provided
to the Debtor after conﬁrmation of the
plan:
⬜ Representation in any contested matter,
evidentiary hearing, and oral argument;
⬜ Representation in any adversary proceedings.
⬜ Preparation and ﬁling of Modiﬁed Plan
.
⬜ Preparation and ﬁling of motion for moratorium
.
⬜ Responding to motion to dismiss, and attendance at hearings
.
⬜ Defending motion for relief from the
automatic stay or adversary proceeding
.
⬜ Preparation and ﬁling of any motion to
sell property
x Other to be determined between attorney
and client.

App. 74
All other additional services will be billed at
the rate of
per hour for attorney
time and
per hour for paralegal
time. Counsel will ﬁle and notice a separate
fee application detailing the additional fees
and costs requested. Counsel will include all
time expended in the case in the separate fee
application.
X See Section (J), Varying Provisions.
(2) Hourly Fees. For hourly fees to be paid as an
administrative expense, counsel must ﬁle and
notice a separate fee application detailing the
additional fees and costs requested. The application must include all time expended in the
case.
Counsel has agreed to represent the Debtor
for all services related to the Chapter 13
bankruptcy to be billed at the rate of
$
per hour for attorney time and
$per hour for paralegal time.
⬜ See Section (J), Varying Provisions.
(G) Vesting. Property of the estate shall vest in the
Debtor upon conﬁrmation of the Plan. The following property shall not re-vest in the Debtor upon
conﬁrmation: all properties listed on schedules
A and B.
X See Section (J), Varying Provisions.
(H) Tax Returns. While the case is pending, the
Debtor shall provide to the trustee a copy of any
post-petition tax return within thirty days after
ﬁling the return with the tax agency. The Debtor
has ﬁled all tax returns for all taxable periods

App. 75
during the four-year period ending on the petition
date, except: N/A.
X See Section (J), Varying Provisions.
(I) Funding Shortfall. Debtor will cure any funding
shortfall before the Plan is deemed completed.
(J) Varying Provisions. The Debtor submits the following provisions that vary from the Local Plan
Form, Sections (A) through (H):
1.
2.

3.

4.

5.

(Opening Paragraph) All defaults are waived
pursuant to 11 U.S.C. §1322(b)(3).
(A)(2) All property or monetary funds submitted to/recovered by the case trustee, pursuant
to this Plan of Reorganization, shall be
treated as advance plan payments with the
plan duration to be shortened proportionally
if the plan duration is not a mandated 60
months pursuant to 11 U.S.C. §1325(b)(3).
(C)(2)(a) In the event this case should be dismissed prior to conﬁrmation (or prior to distribution if the case is conﬁrmed), such
administrative claim shall be paid from plan
payments as may be awarded by the Court,
pursuant to LRBR 2084-3(c).
(C)(4) & (5) No Payments shall be deemed late
and the agreement which is the basis for a
claim shall not be deemed in default, solely as
a result of arrearages being cured under this
Plan.
(C)(8) Such creditors are not entitled to interest on their claims. Upon successful completion
of all Plan payments, any amounts still unpaid
to this class of creditors, shall be discharged.

App. 76

6.

7.

8.

Any claims not speciﬁcally named in the Plan
are presumed to be unsecured claims and
treated as set forth in this subparagraph.
(F) Post-conﬁrmation legal fees will be in an
amount agreed to by the debtor(s) and their
legal counsel, disclosed and paid as required
by applicable federal law.
(G) No property of the estate shall vest in the
debtor(s) until discharge, conversion of this
proceeding to another chapter under the
bankruptcy code, or dismissal.
(H) The debtor will ﬁle post-petition federal
income tax returns pursuant to 11 U.S.C.
§521(f ) with the Court.

(K) Plan Summary. If there is a discrepancy between
paragraphs (A) – (J) and paragraphs (K) – (M),
then the provisions of paragraphs (A) – (J) and the
conﬁrmed plan control.
(1) Trustee’s compensation
(10% of plan payments) ................... $ 5,800.80
(2) Ongoing post-petition mortgage
payments: ............................. direct by debtors
(3) Administrative expenses
and claims: ....................................... $
(4) Priority claims: ................................ $
(5) Prepetition mortgage or lease
arrears, or amount to cure defaults,
including Interest ............................ $
(6) Secured personal property
claims, including interest ............... $64,020.00
(7) Amount to unsecured
non-priority claims .......................... $
79.20
Total of plan payments .............. $69,900.00

App. 77
(L) Section 1325 analysis.
(1) Best Interest of Creditors Test:
(a) Value of debtor’s interest
in nonexempt property ............... $ 0.00
(b) Plus: Value of property
recoverable under avoiding
powers ......................................... $ 0.00
(c) Less: Estimated Chapter 7
administrative expenses
$ 45.00
(d) Less: Amount payable to
unsecured, priority creditors ..... $ 0.00
(e) Equals: Estimated amount
payable to unsecured,
non-priority claims if debtor
ﬁled Chapter 7 ............................ $ 0.00
Paragraph (2) is to be completed by debtors whose
current monthly income exceeds the state’s median income.
(2) Section 1325(b) Analysis:
(a) Monthly disposable income
under § 1325 (b)(2), Form B22C,
Statement of Current Monthly
Income ........................................ $ 00.00
(b) Applicable Commitment
Period .............................................. x 60
(c) Section 1325(b)(2) monthly
disposable income amount
multiplied by 60 ....................... $
(3) Estimated Amount to Unsecured
Non-priority Creditors Under
The Plan ........................................... $ 00.00

App. 78
Dated: October 27, 2015.
/s/ John Robert Reichard
Debtor

Ericka Rae Reichard
Debtor

/s/ David E. Allegrucci #012611
Attorney for Debtor

App. 79
UNITED STATES BANKRUPTCY COURT
DISTRICT OF ARIZONA
In re
JOHN ROBERT REICHARD,

Case No.
2-16-bk-12633-BMW

and

CHAPTER 13 PLAN

ERICKA RAE REICHERD,

Original
Amended
Modiﬁed
Plan payments include post-petition
mortgage payments
⬜ Flat Fee/Administrative Expenses
⬜ Hourly Fee/Administrative Expense

Debtor(s).

⬜
🗹
⬜
⬜

This Plan1 includes the following (check all that are
applicable):

1

⬜

A limit on the amount of a secured claim,
which may result in a partial payment or no
payment to the secured creditor. See Section
(C)(5)(b).

⬜

Avoidance of a judicial lien or nonpossessory,
nonpurchase money security interest. See
Section (C)(5)(c).

🗹

Nonstandard Provisions. See Section (H).

“Plan” includes the original plan and any amended or modiﬁed plan.

App. 80
Your rights may be affected by this Plan. Your
claim may be reduced, modiﬁed or eliminated. If
you object to the treatment of your claim as proposed in this Plan or to any provision of this
Plan, you must ﬁle a written objection by the
deadline set forth below. The Bankruptcy Court
may conﬁrm this Plan without further notice if
no objection is ﬁled and the order is approved by
the Trustee. See Bankruptcy Rule 3015 and Local
Rule 2084-13.
This Chapter 13 Plan is proposed by the above Debtor.2
The Debtor certiﬁes that the information contained in
this Plan is accurate, A creditor who disagrees with the
proposed treatment of its debt in this Plan must timely
ﬁle an objection to the Plan and serve copies on the
Debtor, Debtor’s attorney (if any), and the Chapter 13
Trustee not less than 14 days after the date set for the
ﬁrst meeting of creditors, or any continuation of such
meeting, or 28 days after service of the Plan, whichever
is later. See Local Rule 2084-9.
This Plan does not allow claims or alter the need for
timely ﬁling any claim. For a creditor to receive a distribution for an unsecured claim, the creditor must ﬁle
a proof of claim with the Court.
If conﬁrmed, the Plan will modify the rights and duties
of the Debtor and creditors, except secured creditors
will retain their liens until the earlier of payment of
the underlying debt or Debtor’s discharge under Code
2

If this is a joint case, then “Debtor” means both Debtors.

App. 81
§ 13283. If the case is dismissed or converted to another
chapter (for example, Chapter 7) without completion of
the Plan, each lien shall be retained to the extent recognized by applicable nonbankruptcy law.
Pre-petition defaults will be cured using the interest
rate set forth in the Plan or Code § 511, if applicable.
Any ongoing obligation will be paid according to the
terms of the Plan.
🗹

This is an Amended or Modiﬁed Plan.
The reason(s) why Debtor ﬁled this Amended
or Modiﬁed Plan:
Pursuant to Court Order dated July 5, 2018,
Summarize how the Plan varies from the last
Plan ﬁled: Reduces the amount to be paid
Harley-Davidson. Crdit Corp. to the secured
amount within its proof of claim #2, removes
the provision that only post-petition Federal
income tax returns will be ﬁled with the
Court, lowers interest rate for Ally Financial.

(A) Plan Payments and Property to be Submitted to the Trustee.
Plan payments start on December 2, 2016. The
Debtor shall pay the Trustee as follows:
$1,165.00 each month for month 1 through
month 10 .

3

“Code” means the United States Bankruptcy Code, 11
U.S.C. § 101 et. seq.

App. 82
$1,190.00 each month for month 11 through
month 60 .
$
month

each month for month

through

.

The proposed Plan duration is 60 months. The applicable commitment period is 60 months.
See Code § 1325(b)(4). In addition to plan payments
and, if applicable, mortgage conduit payments,
Debtor will submit the following property to the
Trustee:
NONE
(B) Trustee’s Percentage Fee. The Trustee shall
collect upon receipt a percentage fee from all plan
payments (including mortgage payments) and
property received, not to exceed 10%.
(C) Administrative Expenses and All Claims.
(1) Until the Court conﬁrms the Plan the Trustee
will make adequate protection payments under Section (C)(1)(a) below, mortgage conduit
payments under Section (C)(1)(b), if applicable, and pay other sums as ordered by the
Court. Other disbursements will be made after
the Court confirms the Plan. Unless otherwise
provided for in Section (H) below, disbursements by the Trustee shall be pro rata within
classes and made in the following order:
(a) Adequate protection payments to creditors
secured by personal property.
⬜

None. If “None” is checked, the rest of
Section (C)(1)(a) is not to be completed.

App. 83
Pursuant to Local Rule 2084-6, the Trustee is authorized to make monthly preconﬁrmation adequate protection payments to a secured creditor without a
Court order, provided the claim is properly
listed on Schedule D, a secured proof of
claim is ﬁled that includes documentation evidencing a perfected security agreement, and the Debtor or creditor sends a
letter to the Trustee requesting payment.
The Trustee will apply adequate protection payments to the creditor’s secured
claim. After conﬁrmation, adequate protection payments will continue until the
claim is paid in full, unless the conﬁrmed
Plan or a Court order speciﬁes a different
treatment. if a creditor disagrees with the
amount of the proposed adequate protection payments or the Plan fails to provide
for such payments, the creditor may ﬁle
an objection to conﬁrmation of this Plan
and/or ﬁle a motion pursuant to Code
§§ 362 or 363.
Creditor

Property
Description

Collateral Monthly
Value
Amount

Ally Financial 2013 Chevrolet
Equinox
$ 13,570.00 $ 135.00
BMW Financial 2016 Dodge
aka Alphera
Durango
$ 33,500.00 $ 654.19
Harley-Davidson 2008 Harley-Davidson
Credit Corp.
Super Glide
$ 6,500.00 $ 65.00

App. 84
⬜

Nonstandard Provisions. See Section
(H).

(b) Mortgage Conduit Payments.
⬜

None.

The Trustee shall disburse Conduit Payments to a Real Property Creditor without regard to whether the Court has
conﬁrmed a Plan or the Real Property
Creditor has ﬁled a proof of claim. See
Section (C)(4)(c) and Local Rule 2084-4.
(2) Administrative expenses. Code § 507(a)(2).
(a) Attorney fees. Debtor’s attorney has agreed
to:
⬜

A ﬂat fee of $Paid by 3rd, of which
$Party was paid before the ﬁling of
the case (See Local Rule 2084-3);
or

⬜

File a fee application for payment of
a reasonable amount of fees. The estimated amount of fees to be paid by
the Trustee, subject to Court order, is
$
, of which $
was paid
before the ﬁling of the case.

(b) Additional Services. Counsel for the Debtor
has agreed to charge a ﬂat fee for the following additional services provided to the
Debtor:
(i)

Before Conﬁrmation:
⬜

Adversary proceedings $

.

App. 85
⬜
⬜
⬜

Lien Avoidance Actions $
.
Preparing and ﬁling of any motion to sell property $
.
Other Flat Fees for
$
.

(ii) After Conﬁrmation:
⬜
⬜
⬜
⬜
⬜
⬜
⬜

Preparing and ﬁling of Modiﬁed
Plan $
.
Responding to motion to dismiss and attendance at hearings $
.
Defending motion for relief from
the automatic stay $
.
Adversary proceedings $
.
Lien Avoidance Actions $
.
Preparing and ﬁling of any motion to sell property $
.
Other Flat Fees for
$
.

All other additional services will be billed
at the rate of $300.00 per hour for attorney time and $80.00 per hour for paralegal time. Counsel will ﬁle and notice a
separate fee application detailing the additional fees and costs requested. Counsel
will include all time expended in the case
in the separate fee application.
(c) Other Professional Expenses:

App. 86
(3) Leases and Unexpired Executory Contracts.
🗹

None. If “None” is checked, the rest of Section (C)(3) is not to be completed.
Pursuant to Code § 1322(b), the Debtor
assumes or rejects the following lease or
unexpired executory contract. For a lease
or executory contract with sums owing,
the arrearage will be cured by periodic
plan payments. Unless the Court orders
otherwise, the arrearage amount shall be
the amount stated in the creditor’s allowed proof of claim.

(a) Assumed.
No interest will be paid on the prepetition
arrearage unless otherwise stated in
Nonstandard Provisions at Section (H). A
creditor identiﬁed in this paragraph may
mail to the Debtor all correspondence,
notices, statements, payment coupons, escrow notices, and default notices concerning any change to the monthly payment
or interest rate without such being a violation of the automatic stay.
Property
Description

Creditor

⬜

Collateral Monthly
Value
Amount

Nonstandard Provisions. See Section
(H).

App. 87
(b) Rejected.
Creditor

Property Description

⬜

Nonstandard Provisions. See Section
(H).

(4) Creditors with a Security Interest in Real
Property.
⬜

None. If “None” is checked, the rest of Section (C)(4) is not to be completed.

(a) Claim Wholly Unsecured. The Debtor considers any real property creditor listed
below to have an unsecured claim under
Code § 506(a) as senior liens are greater
in amount than the value of the real property. Unless disallowed or otherwise ordered, each of the following shall be
classiﬁed as a wholly unsecured claim under Section (C)(7) below. This provision
shall not alter the status of a claim otherwise entitled to be classiﬁed as a priority
under Code § 507(a)(8).

App. 88

Creditor

Property
Description

Total
Amount
Value of of Liens
Collateral with
Greater
Priority

(b) No Pre-Petition Mortgage Arrears. To the
extent there are no pre-petition arrears,
regular post-petition mortgage payments
shall be paid directly by the Debtor to the
secured creditor.
Creditor

Property
Address

Lakeview Loan
Servicing, LLC Homestead

Post-Petition
Payments by Debtor
$1,345.83

(c) Curing of Default and Maintenance of
Payments. Prepetition arrearages, including fees and costs, as well as the regular
post-petition payments shall be paid
through the Plan by the Trustee. No interest
will be paid on the prepetition arrearage
unless otherwise stated in Nonstandard
Provisions, Unless the Court orders otherwise, the arrearage amount shall be the
amount stated in the creditor’s allowed
proof of claim.

App. 89
A creditor identiﬁed in this paragraph
may mail the Debtor all correspondence,
notices, statements, payment coupons, escrow notices, and default notices concerning any change to the monthly payment
or interest rate without violating the automatic stay.
Estimated
Creditor or
Arrearage Interest
Current
Property Property
Amount
Rate, if
Monthly
Servicing Description
Owed and applicable
Payment
Agent
Date Owed (i.e., HOA’s)
Through

⬜

Nonstandard Provisions. See Section (H).

(5) Claims Secured by Personal Property or a
Combination of Real and Personal Property.
⬜

None. If “None” is checked, the rest of Section (C)(5) Is not to be completed.
Claims under paragraphs (a) and (b) that
are included in the plan payment will be
paid concurrently and pro rata.

(a) Unmodiﬁed Secured Claims.
⬜

None. If “None” is checked, the rest of
Section (C)(5)(a) is not to be completed.

A claim stated in this subparagraph (i.e. 910
claims) will be paid in full under the Plan with

App. 90
interest at the rate stated below, which may
vary from the contract interest rate. Unless
otherwise ordered, the principal amount to be
paid will be as stated in the creditor’s proof of
claim. The holder of a claim will retain the
lien until the earlier of payment of the underlying debt determined under nonbankruptcy
law or discharge under Code § 1328, at which
time the lien will terminate and shall be released by the creditor, Federal tax liens shall
continue to attach to property excluded from
the bankruptcy estate under Code § 541(c)(2)
until the Internal Revenue Service is required
to release the liens in accordance with nonbankruptcy law.

Property
Description

Creditor

Estimated
Proposed
Amount to be
Interest
Paid on
Rate
Secured Claim

BMW Financial
Services, NA,
LLC aka Alphera 2016 Dodge
Financial
Durango

$37,257.08

Included
in
Conduit
payment

Cortessa
Community
Association

$1,267.40

0%

Homestead
⬜

This debt has nonﬁling codebtor(s)
other than a spouse.
Name(s) of other individuals) liable:

App. 91
Post-petition payments to be made
by: ⬜ Trustee; or
⬜ Nonﬁling codebtor.
🗹

Nonstandard Provisions. See Section
(H).

(b) Modiﬁed Secured Claims.
⬜

None. If “None” is checked, the rest of
Section (C)(5)(b) is not to be completed.

Secured creditors listed below shall be
paid the amount shown below as the
Amount to be Paid on Secured Claim,
with such amount paid through the Plan
payments. If the Plan proposes to pay a
Secured Claim less than the amount asserted in the proof of claim, then the
holder of the Secured Claim must ﬁle a
timely objection to the Plan. if the principal amount of the creditor’s proof of claim
is less than the Amount to be Paid on Secured Claim, then only the proof of claim
amount will be paid. If a creditor fails to
ﬁle a secured claim or ﬁles a wholly unsecured claim, the debtor may delete the
proposed payment of a secured claim in
the order conﬁrming plan. The holder of a
timely filed secured claim will retain its lien
until the earlier of payment of the underlying debt determined under nonbankruptcy
law or discharge under Code § 1328, at
which time the lien will terminate and shall
be released by the creditor. Any proposed

App. 92
adequate protection payments are provided for in Section (C)(1)(a) above.
Creditor
Value of
Amount to
Proposed
Debt Collateral and be Paid on
and
Interest
Property Amount
Valuation
Secured
Rate
Description
Method
Claim
$13,570.00
Ally
KBB Private
Financial $19,293.06 Party Value
Harley$6,500.00
Davidson
Debtors’ est.
Financial $6,516.11
of value
🗹

$13,670.00 4.90%

$6,255.00 7.00%

Nonstandard Provisions. See Section
(H).

(c) Lien Avoidance.
🗹

None. If “None” is checked, the rest of
Section (C)(5)(c) need not be completed.

The judicial liens or nonpossessory, nonpurchase money security interests securing the claims listed below impair
exemptions to which the debtor(s) would
have been entitled under Code § 522(b).
Unless ordered otherwise, a judicial lien
or security interest securing a claim
listed below will be avoided to the extent
that it impairs such exemptions upon entry of the order conﬁrming the plan. The
amount of the judicial lien or security interest that is avoided will be treated as an

App. 93
unsecured claim in Section (C)(7) to the
extent allowed. The amount, if any, of the
judicial lien or security interest that is
not avoided will be paid in full as a secured claim under the plan. See Code
§ 522(f ) and Bankruptcy Rule 4003(d). if
more than one lien is to be avoided, provide the information separately for each
lien. All information for the avoidance of
the lien(s) must be provided.
Information
Information regarding calculation
regarding judicial lien of lien avoidance and treatment
or security interest
of remaining secured claim

(6) Priority, Unsecured Claims, Other Than
Debtor’s Attorney Fees.
🗹

None. If “None” is checked, the rest of Section (C)(6) is not to be completed.
All allowed claims entitled to priority
treatment under Code § 507 shall be paid
in full, pro rata:

(a) Unsecured Domestic Support Obligations.
The Debtor shall remain current on such
obligations that come due after ﬁling the
petition. Unpaid obligations before the
petition date are to be cured in the plan
payments. The amount to be paid will be
adjusted to the creditor’s allowed claim
amount, through the claim process. If the
holder of a domestic support obligation

App. 94
disagrees with the treatment proposed in
this Plan, the holder must ﬁle a timely objection.
Creditor

(b)

Estimated Arrearage

Other unsecured priority claims.

Creditor

⬜

Type of
Priority Debt

Estimated
Amount

Nonstandard Provisions. See Section
(H).

(7) Nonpriority, Unsecured Claims. Allowed unsecured, nonpriority claims shall be paid pro
rata the balance of payments, if any, under the
Plan. The amount to be paid or actually paid
may differ from the Plan Analysis, depending
on the Plan conﬁrmation process and claims
allowance.
⬜

Nonstandard Provisions. See Section (H).

(D) Surrendered Property.
🗹

None. If “None” is checked, the rest of Section
(D) is not to be completed.
Debtor surrenders the following property to
the secured creditor. Upon conﬁrmation of
this Plan or except as otherwise ordered,

App. 95
bankruptcy stays are lifted as to the collateral
to be surrendered. Any claim ﬁled by such
creditor shall receive no distribution until the
creditor ﬁles a claim or an amended proof of
claim that reﬂects any deﬁciency balance remaining on the claim. Should the creditor fail
to ﬁle an amended deﬁciency claim consistent
with this provision, the Trustee need not
make any distributions to that creditor.
Entity

Brief Description of Property

(E) Vesting. Except as stated in this paragraph, property of the estate shall vest in the Debtor upon
conﬁrmation of the Plan.
🗹

The following property shall vest in the
Debtor upon Plan completion:
Brief Description of Property

All property listed in Schedules “A” and “B.”
⬜

Nonstandard Provisions. See Section (H).

(F) Tax Returns. While the case is pending, the
Debtor shall provide to the Trustee a copy of any
post-petition tax return within 14 days after ﬁling
the return with the tax agency. The Debtor has
ﬁled all tax returns for all taxable periods during
the four-year period ending on the petition date,
except;

App. 96
Unﬁled Tax Returns

(G) Funding Shortfall. Debtor will cure any funding
shortfall before the Plan is deemed completed.
(H) Nonstandard Provisions. Any Nonstandard
Provision included herein must not be inconsistent with the Code or Local Rules and must
identify the provision of the Plan being modiﬁed,
the proposed modiﬁcation and the justiﬁcation
for the modiﬁcation. Any Nonstandard Provision
placed elsewhere in this Plan is void. The Debtor
submits the following provisions that vary from
Section (C) of the Local Plan Form:
⬜

None. If “None” is checked, the rest of Section
(H) is not to be completed.

🗹

Provide the detail required above.
Nonstandard Provisions

[State the provision(s) with reference to relevant paragraph(s)]
¶¶ C(5)(a) and (b) “the plan may . . . provide for the
curing or waving of any default.”
11 U.S.C. §1322(b)(3). Justiﬁcation: This is a quote from the U.S.
Bankruptcy Code. Waiving defaults prevents the accrual of interest and/or penalties for a
statutory default. It also allows
the payment of missed postpetition payments to be cured through
this Plan.

App. 97
(I) Plan Summary. If there are discrepancies between the Plan and this Plan Analysis, the provisions of the conﬁrmed Plan control.
(1) Trustee’s Compensation (10% of Total of Plan
Payments to Trustee) ..................... $ 6,403.50
(2) Administrative Expenses (§ (C)(2)) ... $
(3) Leases and Executory Contracts
(§ (C)(3)) .......................................... $
(4)(a) Conduit Mortgage Payments
(§ (C)(4)(c)) .................................. $
(4)(b) Arrearage Claims Secured Solely by Real
Property (§ (C)(4)(c)) ................... $ 1,267.40
(5)(a) Claims Secured by Personal Property or
Combination of Real & Personal Property
(§ (C)(5)) – Unmodiﬁed ............... $37,257.08
(5)(b) Claims Secured by Personal Property or
Combination of Real & Personal Property
(§ (C)(5)) – Modiﬁed .................... $26,142.82
(6) Priority Unsecured Claims (§ (C)(6)) .. $
(7) Unsecured Nonpriority Claims
(§ (c)(7)) ........................................... $
79.20
(8) Total of Plan Payments to Trustee .. $
NaN
$71,150.00
(J) Section 1325 analysis.
(1) Best Interest of Creditors Test:
(a) Value of Debtor’s interest in nonexempt
property ..........................................$00.00
(b) Plus: Value of property recoverable under
avoidance powers ...........................$00.00
(c) Less: Estimated Chapter 7 administrative expenses ..................................$45.00

App. 98
(d) Less: Amount payable to unsecured, priority creditors .................................$00.00
(e) Equals: Estimated amount payable to unsecured, nonpriority claims if Debtor ﬁled
Chapter 75 ......................................$00.00
(2) Section 1325(b) Analysis:
(a) Monthly Disposable Income, Form B 122C2 (if less than $0, then state .............$00.00
(b) Applicable Commitment Period ......... x 60
(c) Total of Line (2)(a) amount ............$00.00
(3) Estimated Payment to Unsecured, Nonpriority Creditors Under Plan ......................$79.20
Certiﬁcation by Debtor(s) and Attorney for Debtor(s):
No [Handwritten] changes were made to the Model
Plan, other than the possible inclusion of relevant Nonstandard Provisions in Section (H).
Dated: August 5, 20 18.
Debtor
/s/ David Allegrucci
Attorney for Debtor

Debtor

App. 99
FEDERAL RULES OF BANKRUPTCY PROCEDURE
Rule 3013. Classification of Claims and Interests
For the purposes of the plan and its acceptance,
the court may, on motion after hearing on notice as the
court may direct, determine classes of creditors and equity security holders pursuant to §§1122, 1222(b)(1),
and 1322(b)(1) of the Code.
(As amended Apr. 30, 1991, eff. Aug. 1, 1991.)
Rule 3014. Election Under § 1111(b) by Secured
Creditor in Chapter 9 Municipality or
Chapter 11 Reorganization Case
An election of application of § 1111(b)(2) of the
Code by a class of secured creditors in a chapter 9 or
11 case may be made at any time prior to the conclusion of the hearing on the disclosure statement or
within such later time as the court may ﬁx. If the disclosure statement is conditionally approved pursuant
to Rule 3017.1, and a ﬁnal hearing on the disclosure
statement is not held, the election of application of
§ 1111(b)(2) may be made not later than the date ﬁxed
pursuant to Rule 3017.1(a)(2) or another date the court
may ﬁx. The election shall be in writing and signed unless made at the hearing on the disclosure statement.
The election, if made by the majorities required by
§1111(b)(1)(A)(i), shall be binding on all members of
the class with respect to the plan.
(As amended Apr. 11, 1997, eff. Dec. 1, 1997.)

App. 100
Rule 3015. Filing, Objection to Confirmation,
Effect of Confirmation, and Modification of
a Plan in a Chapter 12 or a Chapter 13 Case
(a) FILING A CHAPTER 12 PLAN. The debtor may
ﬁle a chapter 12 plan with the petition. If a plan is not
ﬁled with the petition, it shall be ﬁled within the time
prescribed by §1221 of the Code.
(b) FILING A CHAPTER 13 PLAN. The debtor may
ﬁle a chapter 13 plan with the petition. If a plan is not
ﬁled with the petition, it shall be ﬁled within 14 days
thereafter, and such time may not be further extended
except for cause shown and on notice as the court may
direct. If a case is converted to chapter 13, a plan shall
be ﬁled within 14 days thereafter, and such time may
not be further extended except for cause shown and on
notice as the court may direct.
(c) FORM OF CHAPTER 13 PLAN. If there is an Ofﬁcial Form for a plan ﬁled in a chapter 13 case, that form
must be used unless a Local Form has been adopted in
compliance with Rule 3015.1. With either the Ofﬁcial
Form or a Local Form, a nonstandard provision is effective only if it is included in a section of the form designated for nonstandard provisions and is also
identiﬁed in accordance with any other requirements
of the form. As used in this rule and the Ofﬁcial Form
or a Local Form, “nonstandard provision” means a provision not otherwise included in the Ofﬁcial or Local
Form or deviating from it.
(d) NOTICE. If the plan is not included with the
notice of the hearing on conﬁrmation mailed under

App. 101
Rule 2002, the debtor shall serve the plan on the trustee and all creditors when it is ﬁled with the court.
(e) TRANSMISSION TO UNITED STATES TRUSTEE. The
clerk shall forthwith transmit to the United States
trustee a copy of the plan and any modiﬁcation thereof
ﬁled under subdivision (a) or (b) of this rule.
(f ) OBJECTION TO CONFIRMATION; DETERMINATION
OF GOOD FAITH IN THE ABSENCE OF AN OBJECTION. An
objection to conﬁrmation of a plan shall be ﬁled and
served on the debtor, the trustee, and any other entity
designated by the court, and shall be transmitted to
the United States trustee, at least seven days before
the date set for the hearing on conﬁrmation, unless the
court orders otherwise. An objection to conﬁrmation is
governed by Rule 9014. If no objection is timely ﬁled,
the court may determine that the plan has been proposed in good faith and not by any means forbidden by
law without receiving evidence on such issues.
(g) EFFECT OF CONFIRMATION. Upon the conﬁrmation of a chapter 12 or chapter 13 plan:
(1) any determination in the plan made under Rule 3012 about the amount of a secured claim
is binding on the holder of the claim, even if the
holder ﬁles a contrary proof of claim or the debtor
schedules that claim, and regardless of whether
an objection to the claim has been ﬁled; and
(2) any request in the plan to terminate the
stay imposed by § 362(a), § 1201(a), or § 1301(a) is
granted.

App. 102
(h) MODIFICATION OF PLAN AFTER CONFIRMATION.
A request to modify a plan under § 1229 or § 1329 of
the Code shall identify the proponent and shall be ﬁled
together with the proposed modiﬁcation. The clerk, or
some other person as the court may direct, shall give
the debtor, the trustee, and all creditors not less than
21 days’ notice by mail of the time ﬁxed for ﬁling objections and, if an objection is ﬁled, the hearing to consider the proposed modiﬁcation, unless the court
orders otherwise with respect to creditors who are not
affected by the proposed modiﬁcation. A copy of the notice shall be transmitted to the United States trustee.
A copy of the proposed modiﬁcation, or a summary
thereof, shall be included with the notice. Any objection
to the proposed modiﬁcation shall be ﬁled and served
on the debtor, the trustee, and any other entity designated by the court, and shall be transmitted to the
United States trustee. An objection to a proposed modiﬁcation is governed by Rule 9014.
(As amended Apr. 30, 1991, eff. Aug. 1, 1991; Apr, 22,
1993, eff. Aug. 1, 1993; Mar. 26, 2009, eff. Dec. 1, 2009;
Apr. 27, 2017, eff. Dec. 1, 2017.)
Rule 3015.1. Requirements for a Local Form for
Plans Filed in a Chapter 13 Case
Notwithstanding Rule 9029(a)(1), a district may
require that a Local Form for a plan ﬁled in a chapter
13 case be used instead of an Ofﬁcial Form adopted for
that purpose if the following conditions are satisﬁed:

App. 103
(a) a single Local Form is adopted for the district
after public notice and an opportunity for public comment;
(b) each paragraph is numbered and labeled in
boldface type with a heading stating the general subject matter of the paragraph;
(c) the Local Form includes an initial paragraph
for the debtor to indicate that the plan does or does not:
(1)

contain any nonstandard provision;

(2) limit the amount of a secured claim
based on a valuation of the collateral for the claim;
or
(3)
(d)

avoid a security interest or lien;

the Local Form contains separate paragraphs

for:
(1) curing any default and maintaining payments on a claim secured by the debtor’s principal
residence;
(2)

paying a domestic-support obligation;

(3) paying a claim described in the ﬁnal paragraph of § 1325(a) of the Bankruptcy Code; and
(4) surrendering property that secures a
claim with a request that the stay under §§362(a)
and 1301(a) be terminated as to the surrendered
collateral; and

App. 104
(e)

the Local Form contains a ﬁnal paragraph for:

(1) the placement of nonstandard provisions,
as deﬁned in Rule 3015(c), along with a statement
that any nonstandard provision placed elsewhere
in the plan is void; and
(2) certiﬁcation by the debtor’s attorney or
by an unrepresented debtor that the plan contains
no nonstandard provision other than those set out
in the ﬁnal paragraph.
(Added Apr. 27, 2017, eff. Dec. 1, 2017.)
Rule 3016. Filing of Plan and Disclosure Statement in a Chapter 9 Municipality or Chapter
11 Reorganization Case
(a) IDENTIFICATION OF PLAN. Every proposed plan
and any modiﬁcation thereof shall be dated and, in a
chapter 11 case, identiﬁed with the name of the entity
or entities submitting or ﬁling it.
(b) DISCLOSURE STATEMENT. In a chapter 9 or 11
case, a disclosure statement under § 1125 of the Code
or evidence showing compliance with § 1126(b) shall be
ﬁled with the plan or within a time ﬁxed by the court,
unless the plan is intended to provide adequate information under §1125(f )(1). If the plan is intended to
provide adequate information under §1125(f )(1), it
shall be so designated and Rule 3017.1 shall apply as
if the plan is a disclosure statement.
(c) INJUNCTION UNDER A PLAN. If a plan provides for an injunction against conduct not otherwise
enjoined under the Code, the plan and disclosure

App. 105
statement shall describe in speciﬁc and conspicuous
language (bold, italic, or underlined text) all acts to be
enjoined and identify the entities that would be subject
to the injunction.

